<html>
<title> - ASSESSING DEVELOPMENTS IN MALI: RESTORING DEMOCRACY AND RECLAIMING THE NORTH</title>
<body><pre>[Senate Hearing 112-737]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-737

 
ASSESSING DEVELOPMENTS IN MALI: RESTORING DEMOCRACY AND RECLAIMING THE 
                                 NORTH

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 5, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
79-799                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c0b1c032c0f191f180409001c420f030142">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
RICHARD J. DURBIN, Illinois          MIKE LEE, Utah
TOM UDALL, New Mexico                BOB CORKER, Tennessee

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Akuetteh, Nii, independent policy researcher, Washington, DC.....    37
    Prepared statement...........................................    38
Carson, Johnnie, Assistant Secretary for African Affairs, U.S. 
  Department of State, Washington, DC............................     4
    Prepared statement...........................................     8
Coons, Hon. Christopher A., U.S. Senator from Delaware, opening 
  statement......................................................     1
Dory, Amanda, Deputy Assistant Secretary for Africa, U.S. 
  Department of Defense, Washington, DC..........................    17
    Prepared statement...........................................    19
Dufka, Corinne, senior researcher, Africa Division, Human Rights 
  Watch, Washington, DC..........................................    34
Fomunyoh, Christopher, senior associate and regional director for 
  Central and West Africa, National Democratic Institute, 
  Washington, DC.................................................    28
    Prepared statement...........................................    29
Gast, Earl, Assistant Administrator for Africa, U.S. Agency for 
  International Development, Washington, DC......................    11
    Prepared statement...........................................    13
Isakson, Hon. Johnny, U.S. Senator from Georgia, opening 
  statement......................................................     3
Mahmoud, Mohamed Ould, vice president, Lobbying Network for 
  Peace, Security, and Development for Northern Mali, Bamako, 
  Mali...........................................................    45
    Prepared statement...........................................    47

                                 (iii)

  


ASSESSING DEVELOPMENTS IN MALI: RESTORING DEMOCRACY AND RECLAIMING THE 
                                 NORTH

                              ----------                              


                      WEDNESDAY, DECEMBER 5, 2012

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:10 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons presiding.
    Present: Senators Coons and Isakson.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I will be joined momentarily by my friend 
and ranking member, Senator Johnny Isakson of Georgia, and we 
expect other Senators to join, but I thought it was timely for 
us to proceed.
    I'm grateful for the support of the committee and the hard 
work of my staff in making possible today the first time we 
will have a witness testifying directly from a foreign country 
which is the subject of a hearing, and I hope that will 
contribute to an ongoing process of trying to expand the range 
and scope of testimony included in these hearings.
    Today's focus is on Mali, and as we speak, there are three 
simultaneous crises occurring in Mali--a security, a political, 
and a humanitarian crisis--all three of which, in my view, 
threaten United States interests in Africa and require the 
attention of the U.S. Government and the world. That's why 
we've convened this hearing today, to assess developments in 
Mali and to discuss a path forward to restore democracy, to 
reclaim the north, to stabilize the security situation, and to 
address ongoing humanitarian needs.
    I would like to welcome my friend and partner on the 
subcommittee, Senator Johnny Isakson, and I understand we may 
well be joined by others, and to thank our distinguished 
witnesses for sharing their insight and expertise.
    Earlier this year, a military coup deposed the 
democratically elected Government of Mali, and an ethnic 
rebellion staked its claim on the northern two-thirds of this 
vast country. This left a security and political vacuum that 
was exploited by Islamic extremists. As of today, Al Qaeda in 
the Islamic Maghreb--more commonly known as AQIM--and two 
affiliated groups control the majority of northern Mali, an 
area roughly the size of the U.S. State of Texas, making it the 
largest territory controlled by Islamic extremists in the 
world.
    I am concerned that the current United States approach 
toward Mali may not be comprehensive and forward-leaning enough 
to address all three of these difficult, complex, and 
interconnected crises--security, political, and humanitarian. 
So today we will examine U.S. policy in these three areas with 
the goal of providing recommendations for a path forward. We 
will assess evolving plans for a regionally led, multilateral 
military intervention in northern Mali and consider the 
complementary goals of encouraging elections and restoring 
security by reclaiming the north.
    With growing ties between extremist and terrorist groups in 
Mali, Nigeria, Libya, Somalia, and beyond, there is growing 
concern that AQIM will leverage its new safe haven in Mali to 
carry out training and advance plans for regional or 
transnational terrorist attacks, making Mali, in the words of 
Secretary Clinton, a powder keg of instability in the region 
and beyond.
    The U.N. Security Council will likely vote in the coming 
weeks on a resolution authorizing a military intervention by 
ECOWAS and the African Union. Similar African-led 
interventions--for example, in Cote d'Ivoire and Somalia--have 
provided a model for multilateral and regionally led solutions 
that allow the United States and our allies to provide 
operational support without putting boots on the ground.
    This intervention will take time, and stability cannot be 
restored through military action alone. The situation in Mali 
is as much a crisis of governance as of security. The long-
running grievances of the Tuaregs in the north and a political 
vacuum in the south must be addressed through diplomacy, 
rebuilding democratic institutions, and the restoration of a 
democratically elected government. In addition, any agreement 
that attempts to peel off groups currently aligned with AQIM 
will require a credible government to do so in Bamako.
    Elections are the key to not only resolving and restoring 
now-frozen U.S. bilateral assistance, but also for reclaiming 
government control of the north and restoring Mali's nearly 
three-decade-long history of democracy.
    Mali's political and security challenges cannot be 
addressed as separate issues. As the U.N. Secretary General's 
recent report on Mali suggested, the international community 
must work to address these multiple crises simultaneously and 
consider the implications of moving forward with elections that 
might exclude participation of northerners. Such an election 
could be viewed as a symbolic victory for AQIM and may further 
entrench those who aim to establish a permanent Islamic state 
in the north.
    In short, this conflict has caused humanitarian as well as 
security, as well as diplomatic challenges. There are more than 
400,000 people displaced in Mali, and an exacerbated and 
ongoing food crisis across the Sahel, leaving more than 4.5 
million people in need of emergency food aid. NGOs have 
reported rampant human rights abuses in northern Mali, further 
adding to the instability and challenges, which include 
torture, executions, recruitment of child soldiers, 
amputations, as well as violations of women's rights, 
children's rights, and restrictions on fundamental freedoms 
such as speech and religion.
    To provide insight on our path forward and to discuss these 
three strands, we have assembled two distinguished panels. 
First, we will hear from Assistant Secretary of State for 
African Affairs, Ambassador Johnnie Carson; then USAID 
Assistant Administrator for Africa, Mr. Earl Gast; and last, 
Deputy Assistant Secretary of Defense for Africa, Ms. Amanda 
Dory. We are grateful for your presence.
    On our second panel we will hear from senior associate and 
regional director for West Africa at the National Democratic 
Institute, Dr. Chris Fomunyoh; and then senior researcher in 
the Africa Division at the Human Rights Watch, Ms. Corrine 
Dufka; and then independent policy researcher, Mr. Nii 
Akuetteh; and vice president of the Lobbying Network for Peace, 
Security, and Development for Northern Mali, Mr. Mohamed Ould 
Mahmoud, who will be testifying via webcast in order to provide 
a first-hand perspective from Bamako.
    I look forward to hearing the testimony of all our 
witnesses on these two panels, and would like to turn to 
Senator Isakson for his opening remarks.
    Thank you.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Chairman Coons, and I 
commend you on calling this hearing on what is a very important 
and pressing issue in the ECOWAS area and in West Africa, where 
you and I traveled about a year and a half ago in the area to 
Ghana, Benin, and Nigeria, and there are a lot of fledgling 
democracies. We saw what happened in Cote d'Ivoire, where we 
ended up with free democratic elections and a transition of 
power out of a very difficult situation, and obviously our 
interest here today is to explore ways in which the United 
States can be of help to hopefully bring about free and fair 
elections in 2013 and return all of Mali back to a 
democratically represented country, as it has been for the last 
20 years, until the March and spring initiative in the north 
which caused the coup and which caused the current problems.
    The United States has played a significant role in Africa 
in many areas where there were problems. The Sudan could be no 
better example, where because of United States involvement, 
nonmilitary involvement but diplomatic involvement and special 
envoy involvement brought about a process in 5 years that 
brought about the free elections in the south and the creation 
of the newest independent state in the world, the South Sudan. 
The United States can play a great role in that, and it's 
important for us to understand the issues that affect us, the 
issues that affect that area, and what we can do to help.
    Of a personal note, I also have concern anytime al-Qaeda 
takes advantage of a vacuum or flows into an area because of 
poverty or because of lack of governance. That's what's 
happened in the north. Al-Qaeda and the Islamic Maghreb is 
present. To the extent they are present we don't know for sure, 
and I'm anxious to hear from our witnesses today to talk about 
that. But that also is a point of concern for our people of the 
United States and for our country.
    So I commend you on calling the hearing. I look forward to 
hearing from all our witnesses and thank all of them who are 
testifying today.
    Senator Coons. Thank you so much, Senator.
    Let's now begin with our first panel, if we might, 
Assistant Secretary Carson.

 STATEMENT OF JOHNNIE CARSON, ASSISTANT SECRETARY FOR AFRICAN 
       AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Carson. Thank you, Mr. Chairman, for this 
opportunity to testify before you on this important subject. I 
also want to recognize the ranking member, Senator Isakson, for 
his keen interest also in issues related to Africa.
    Mali's March 21, 2012, military coup d'etat ended two 
decades of Malian democracy, resulted in the loss of the 
northern Mali to extremist groups, and further destabilized an 
already fragile Sahel region. Mali is now facing four distinct 
but overlapping challenges: restoring democracy, negotiating a 
political solution to the Tuareg rebellion, countering the 
threat from Al Qaeda in the Islamic Maghreb, and responding to 
an ongoing humanitarian crisis.
    Mali, its regional partners, and the international 
community must respond to each of these challenges 
simultaneously. Without addressing each of these issues, Mali 
will not be able to make a successful political or economic 
recovery.
    Mali's first challenge is the restoration of democratic 
governance. The framework agreement negotiated by ECOWAS with 
the military junta following the March 21 coup mandates that 
Mali's interim government must organize elections and put in 
place a legitimate, democratically elected government by April 
2013.
    While the interim government has made progress in 
strengthening governance, preparations for elections are moving 
slowly. We continue to strongly encourage the interim 
government to set a date for elections and to develop a roadmap 
for the transition to a new democratically elected government.
    The United States, along with the international community, 
stands ready to assist Mali in conducting free, fair, and 
transparent elections.
    The interim government should build on the preparations 
that were undertaken before the aborted April 2012 elections 
and hold elections by April 2013 with as many voters as 
possible. The United States looks forward to working with the 
interim government and the international community to examine 
the best mechanisms to ensure that voters from all regions of 
Mali, including those in refugee camps in neighboring 
countries, can participate in national elections.
    As Mali moves through its current political transition, we 
have been clear and unequivocal in our messages to coup leader 
Captain Sanogo and the Malian public about the need for Captain 
Sanogo to leave the political stage and to be held accountable 
for human rights abuses committed while he was in control.
    We have imposed targeted travel sanctions on Captain Sanogo 
and more than 60 other individuals who were involved in the 
coup or who continue to impede the restoration of democracy. 
The U.S Government has also formally terminated its assistance 
to the Government of Mali except for programs providing 
critical humanitarian assistance in health care and food 
security. We will maintain these kinds of pressures until Mali 
transitions to a new democratically elected government.
    Elections and the restoration of Mali's democratic 
institutions by 2013 are critical for ensuring that the Malian 
Government has the legitimacy and the credibility that it needs 
to negotiate with the Tuareg and other northern populations and 
to coordinate effectively with regional and international 
partners to defeat AQIM.
    The ongoing rebellion in northern Mali by the Tuareg 
community is a second major factor contributing to Mali's 
current political and security problems. The government must 
recognize and address the legitimate political and social-
economic grievances of the Tuareg community. The United States 
commends the efforts of African leaders, including President 
Compaore of Burkina Faso, to facilitate dialogue between the 
interim government and northern groups that accept Mali's 
territorial integrity and who reject terrorism.
    We support the commitment of interim President Traore to 
open a dialogue with those actors in the north who respect 
Mali's territorial integrity. We also welcomed the news that 
representatives of the Tuareg National Movement for the 
Liberation of Azawad, known as the MNLA, have retracted their 
declaration of independence of the north, and that key figures 
in the MNLA and the Ansar al-Dine have declared their readiness 
to negotiate with the interim government. These political 
negotiations should be pursued diligently.
    Mali's interim government must demonstrate its commitment 
to negotiations by appointing a lead negotiator for the north. 
The interim government also must find ways to effectively 
address legitimate northern grievances in a peaceful manner.
    The Tuareg are not terrorists, and the grievances of the 
Tuareg should be resolved peacefully and not through military 
actions.
    The participation of Algeria and Mauritania, which are not 
members of ECOWAS, are also crucial in finding a lasting 
solution to the Malian problem. Later this week, a delegation 
of U.S. officials, including Deputy Secretary of State William 
Burns, will be traveling to Algiers to encourage the Algerians 
to play a more active role in addressing the political and 
security problems in northern Mali. Secretary Clinton was in 
Algeria to discuss Mali, among other issues, approximately a 
month ago.
    The third challenge in Mali is terrorism. We are gravely 
concerned about the presence and activities of terrorist and 
extremist groups in northern Mali. Al Qaeda in the Islamic 
Maghreb, the Movement for Unity and Jihad in West Africa, known 
as MUJAO, and other affiliated groups have exploited the 
political unrest created by the March coup and northern 
rebellion to expand their safe haven in northern Mali and to 
impose their ideology on local communities throughout the 
northern part of the country.
    While these tactics remain alien to the vast majority of 
the population in the affected areas, AQIM and MUJAO have 
established at least temporary relationships with a number of 
groups in northern Mali and currently control the key cities of 
Timbuktu, Gao, and Kidal.
    Any attempt to militarily oust AQIM from northern Mali must 
be African-led. It must be Malian-led. It must be well-planned, 
well-organized, and well-resourced to be successful.
    Military plans must also account for civilian security and 
humanitarian needs.
    We support the efforts of the interim government of Mali, 
ECOWAS, the African Union, the United Nations, neighboring 
states, and others in the international community to prepare a 
military response, in accordance with international law, to 
address the threat of terrorists and extremists in northern 
Mali. The threat of military force has contributed, we think, 
to a change in some of the northern groups, as witnessed by the 
recent willingness of the MNLA and other members of Ansar al-
Dine, to renounce their efforts to establish an independent 
state in northern Mali.
    The military concept proposed by ECOWAS and endorsed by the 
African Union provides a foundation for planning a proposed 
military intervention in northern Mali. However, several key 
questions must be answered to ensure that this response is 
well-planned, well-resourced, and appropriate.
    These issues include, among other things, the required 
force levels, the cost and funding needs, the logistical 
requirements, the operational timeliness, the protection of 
civilians, and ensuring that the proposed military action is 
adequately linked to a political strategy and an end state for 
military operations in the north.
    We have sent military planners to ECOWAS to assist with the 
continued development and refinement of the plans for 
international intervention. As the planning continues, we 
expect that many of the outstanding questions that I have 
raised, that we have raised as a government, will, in fact, be 
answered.
    We also continue to engage actively in New York with the 
U.N. and other international partners in preparation for the 
ongoing U.N. Security Council discussions on a resolution on 
military intervention in the north. As plans develop for the 
military operation, we will be better able to determine how the 
United States can best support ECOWAS and the AU elements in 
this effort.
    Mali's neighbors have intensified their ongoing efforts to 
bolster their own security and to address the AQIM safe haven 
in northern Mali. Algeria, Mauritania, and Niger are all deeply 
concerned that any military intervention in northern Mali will 
cause a spillover of extremists into their own countries. These 
governments strongly favor exhausting all political dialogue 
before any intervention.
    We ourselves are assisting Mauritania and Niger, as well as 
some eight other states in the region, through our Trans-Sahara 
Counter-Terrorism Partnership program, TSCTP. This program is 
designed to help build long-term capacity to counter and 
marginalize terrorist organizations; disrupt efforts to 
recruit, train, and provision extremists; and to build up the 
capacities of the states in the region.
    However, lasting resolution to the terrorist threat will 
require that the countries in the Sahel develop the capacity to 
counter AQIM, along with other transnational threats like drug 
smuggling and human trafficking.
    The fourth crisis in the region is one of humanitarian 
proportions. The human toll of these overlapping challenges has 
been enormous. Since the start of the fighting in northern 
Mali, more than 410,000 people have become refugees or 
internally displaced. Of these, nearly 200,000 people are 
displaced within Mali alone, and more than 210,000 Malians have 
fled to Niger, Mauritania, and Burkina Faso. Algeria also hosts 
large Malian populations of refugees.
    In an effort to mitigate the effects of the complex 
humanitarian crisis in the Sahel, we are providing humanitarian 
food assistance to those displaced in the region. In 2012, the 
U.S. Government provided some $445 million in assistance to the 
Sahel region, $119 million of which was in support of emergency 
needs within Mali and among refugee populations outside of 
Mali. The humanitarian response should remain a civilian-led 
effort in order to ensure the neutral and impartial character 
of humanitarian operations.
    We have encouraged greater international cooperation and 
coordination in developing a comprehensive approach to Mali's 
multiple crises and the greater Sahel. The U.N. Secretary 
General's recent appointment of a special envoy for the Sahel 
will help provide the needed facilitation and coordination. We 
will discuss the drafting of the Secretary General's integrated 
strategy for the Sahel at a meeting in Rome this Friday. It is 
important that the next U.N. Security Council resolution be 
based in part on the U.N. Secretary General's recent report to 
the Security Council on Mali, and that the restoration of 
democracy, political negotiations with the Tuareg, and the 
humanitarian response receive the same level of priority as any 
discussions about military interventions against AQIM. All four 
of these challenges must be met simultaneously.
    ECOWAS clearly has a very important role to play in 
assisting Mali. Five of the organization's 15 Member States 
share borders with Mali. Although they are not ECOWAS members, 
Algeria and Mauritania also share long borders with Mali and 
have important contributions to make.
    In closing, addressing these four overlapping challenges 
will require comprehensive, sustained, and dedicated regional 
and international support and engagement. We in Washington are 
committed to the sovereignty and territorial integrity of Mali. 
We support inclusive dialogue and negotiations to address the 
economic and social needs of the marginalized populations in 
the north, especially the Tuareg. We support reunification of 
Malian territory, both through negotiations with Malians who 
support a unified and secular state and through well-planned 
and well-resourced African-led military actions to dislodge the 
terrorists. We will also continue to address the humanitarian 
crisis in the Sahel region as well.
    Mr. Chairman, I have a much longer statement which I have 
submitted to you for the record. But again, thank you for this 
opportunity to testify, and thank you, Mr. Chairman, and thank 
you, Senator Isakson, for your keen interest in this issue.
    Thank you.
    [The prepared statement of Ambassador Carson follows:]

        Prepared Statement of Assistant Secretary Johnnie Carson

    Thank you very much, Chairman Coons and members of the committee, 
for the opportunity to testify before you on this most important 
subject. Mali's March 21, 2012, military coup d'etat ended two decades 
of Malian democracy, resulted in the loss of the northern Mali to 
extremist groups, and further destabilized an already fragile Sahel 
region. Mali is now facing four distinct but overlapping challenges--
the restoration of democratic governance, political negotiations with 
northern groups that reject extremism, Al Qaeda in the Islamic 
Maghreb's expanded presence in northern Mali, and an ongoing 
humanitarian crisis. Mali, regional partners, and the international 
community must respond to each of these challenges simultaneously. Our 
response to any one of these challenges must not be dependent on the 
achievement of another.

            1. RESTORING A DEMOCRATICALLY ELECTED GOVERNMENT

    Mali's first challenge is the restoration of democratic governance. 
The framework agreement negotiated by ECOWAS with the military junta 
following the March 21 coup mandates that Mali's interim government 
must organize elections and put in place a legitimate, democratically 
elected government by April 2013.
    While the interim government has made progress in strengthening 
governance, preparations for elections are moving slowly. The longer 
Mali's political elite delay in putting this electoral process in 
motion, the more likely it is that the April 2013 date will slip. We 
continue to encourage the interim government to set a date for 
elections and develop a roadmap for the transition to a democratically 
elected government. I recently sent a letter to Interim Malian Prime 
Minister Diarra urging him to support preparations for elections and 
repeating our assurance that the United States, along with the 
international community, stands ready to assist him in overcoming the 
challenges for carrying out free, fair, and transparent elections. My 
letter also emphasized our support for recent ECOWAS statements 
regarding the ineligibility of current members of the interim 
government to run in the elections.
    The United States has made elections in Mali a priority because 
historically transitional governments that are not pressed to hold 
elections and restore constitutional order tend to hold on to power 
long beyond their mandate. While we support Interim President Traore 
and Interim Prime Minister Diarra as they guide the transition 
government during this challenging time in Mali's history, transition 
governments, including this one, are inherently weak. Mali needs now 
more than ever a strong democratic government to restore its democratic 
tradition and provide the strong leadership necessary to negotiate a 
political agreement with northern rebels, reform its security sector, 
and lead a military intervention in the north to restore and maintain 
Mali's territorial integrity. Although there is currently some Malian 
public resistance to holding elections before the reunification of the 
country, we will continue to express the need to hold elections prior 
to recapturing the north. We encourage the interim government to 
consult with UNHCR and other stakeholders to find ways to hold polls in 
refugee camps so those displaced by the violence in northern Mali are 
given an opportunity to vote and ensure the participation of the 
population of northern Mali. Elections can send a strong message to 
coup leaders, extremists, and rebels alike--the Malian people will not 
allow violence to rob them of their democracy.
    The interim government should build on the preparations that were 
undertaken before the aborted April 2012 elections and hold elections 
as soon as technically feasible with as many voters as possible. The 
United States looks forward to working with the interim government and 
the international community to examine the best mechanism to ensure 
that voters from all regions of Mali, including those in refugee camps 
in neighboring countries, can participate in national elections.
    The 2013 elections must be transparent and free of intimidation 
from the coup leaders and their supporters. We have been unequivocal in 
our messages to coup leader Captain Sanogo and the Malian public about 
the need for Sanogo to leave the political stage and be held 
accountable for the excesses of this period, and in particular the 
human rights abuses and mistreatments credibly ascribed to Captain 
Sanogo and his associates. We have imposed targeted travel sanctions on 
more than 60 individuals who were involved in the coup, supported its 
authors, or who continue to impede the restoration of democracy. We 
will maintain these kinds of pressures until Mali transitions to a 
democratically elected government.
    As a result of the March 2012 coup in Mali, the U.S. Government 
formally terminated assistance to the Government of Mali. Funding for 
programs that provide life-saving, critical assistance in health and 
food security, as well as democratic elections support programming, is 
reviewed on a case-by-case basis. These decisions will be affected by 
the current political and security situation in Mali and how it 
develops, with recognition that these are complex challenges. Programs 
that have resumed include activities to reduce child mortality, HIV/
AIDS prevention and treatment, essential life-saving services for 
maternal and child health, and preparation for the planting season to 
ensure food security. These activities are implemented through 
nongovernmental organizations (NGOs).
    The United States firmly believes that Mali's interim leaders must 
continue preparations in earnest to hold elections simultaneous with 
efforts to address the political grievances of Mali's northern 
populations, restore Mali's territorial integrity, and respond to the 
continued humanitarian crisis. Elections are critical for ensuring that 
the Malian Government has the legitimacy needed to negotiate with 
indigenous northern groups and effectively coordinate with regional and 
international partners to oust AQIM.

               2. REBELLION IN THE NORTH AND NEGOTIATIONS

    The ongoing rebellion in northern Mali is another major factor 
contributing to the instability and crises in Mali and the Sahel. 
Recognizing that the Tuareg and other nonextremist groups in northern 
Mali have legitimate political and socioeconomic grievances, ECOWAS, 
the AU, and the international community have encouraged a renewed and 
strengthened process of mediation to end the northern rebellion. 
The United States commends the efforts of African leaders, including 
President Compaore of Burkina Faso, to facilitate dialogue between the 
interim government and northern groups that accept Mali's territorial 
integrity and reject terrorism.
    We support the commitment of interim President Traore to open 
dialogue with those actors in the north who are committed to Mali's 
territorial integrity and secular nature. We also welcomed the news 
that representatives of the Tuareg National Movement for the Liberation 
of the Azawad (MNLA) have retracted their declaration of independence 
of the north, and key figures in the MNLA and Ansar al-Dine have 
declared their readiness to negotiate with the interim government. 
Mali's interim government must demonstrate its commitment to 
negotiations by appointing a lead negotiator for the north to 
peacefully address the long-standing political grievances of northern 
groups that accept Mali's territorial integrity and renounce terrorism. 
The feasibility of a lasting negotiated settlement, however, will 
ultimately depend on the legitimacy that can only come with a 
democratically elected government. Long-term talks will be needed to 
address the legitimate social and economic needs of northern 
populations; these future negotiations are a necessary complement to 
the current short-term negotiations to separate those groups in the 
north who respect Mali's territorial integrity and secular nature from 
the extremists and terrorist groups with whom negotiation is not an 
option.
    The participation of Algeria and Mauritania, which are not members 
of ECOWAS, also will be crucial to a lasting solution in northern Mali. 
This week, a delegation of U.S. officials, including Deputy Secretary 
of State Burns, will be traveling to Algiers to encourage the Algerians 
to play a more active role in addressing the crises in northern Mali, 
as Secretary Clinton did during her recent visit to Algeria.

        3. THREATS FROM TERRORISTS AND OTHER EXTREMIST ELEMENTS

    We are seriously concerned about the presence and activities of 
terrorist and extremist groups in northern Mali. Al Qaeda in the 
Islamic Maghreb, Movement for Unity and Jihad in West Africa (MUJAO), 
and affiliated groups have exploited the political chaos created by the 
coup and northern rebellion to expand their safe haven in northern Mali 
and impose their radical ideology on local populations. While their 
tactics and ideology remain alien to the vast majority of the 
population in the affected areas, AQIM and MUJAO established at least 
temporary relationships with a number of groups in the area and 
currently hold the military upper hand in the areas under their 
control, including the key towns of Timbuktu, Gao, and Kidal.
    Any attempt to militarily oust AQIM from northern Mali must be 
African-led, well-planned, and well-resourced. Military plans must also 
account for civilian security and humanitarian response. We support the 
efforts of the interim government of Mali, ECOWAS, the African Union, 
the United Nations, neighboring partners, and others in the 
international community to prepare a military response, in accordance 
with international law, to address the threat of terrorists and 
extremists in northern Mali. The threat of military force has 
contributed to change in some of the actors, witnessed by the recent 
willingness of the MNLA and some members of Ansar al-Dine to negotiate 
with the interim government.
    The military concept proposed by ECOWAS and endorsed by the AU 
provides a foundation for planning a proposed military intervention in 
northern Mali. The military concept proposes an Africa-led effort, but 
several key questions must be answered to ensure that this effort is 
also well-planned and well-resourced. These issues include outstanding 
questions about necessary force levels, the capabilities of the Malian 
and international forces to accomplish the objectives of the mission, 
cost and funding needs, logistical requirements, operational timelines, 
planning for minimizing impacts on civilian security and the 
humanitarian situation, and ensuring that the proposed military action 
is adequately linked to a sufficiently detailed political strategy and 
end state for military operations in the north.
    We have sent military planners to ECOWAS to assist with the 
continued development and refinement of the plan for international 
intervention. As the planning continues, we expect that many of the 
outstanding questions will be answered. We also continue to engage with 
the U.N. and our international partners in preparation for an 
anticipated U.N. Security Council resolution on a military intervention 
in the north.
    As plans develop for the military operation we will be better able 
to determine how the United States can best support the ECOWAS and AU 
elements of the military force.
    Mali's neighbors have intensified their ongoing efforts to bolster 
their own security and address the AQIM safe haven in northern Mali. 
Algeria, Mauritania, and Niger are concerned that any military 
intervention in northern Mali will cause a spillover of extremists 
across their borders. This could also have repercussions on the 
security of refugees. These neighbors are increasing their border 
security, and we are urging UNHCR to work with host governments to 
ensure appropriate security and screening measures are in place in 
order to maintain the impartiality, neutrality, and civilian nature of 
refugee camps. These governments strongly favor exhausting political 
dialogue before an intervention.
    We are monitoring the actions of AQIM and other extremist and 
terrorist organizations in the north, and continue to work with the 
international community to address this evolving threat. We continue to 
enhance our work with Mali's neighbors, to increase their capacity to 
secure their borders, disrupt AQIM supply lines, and contain the spread 
of extremist groups. We assist Mauritania and Niger through the Trans-
Sahara Counter Terrorism Partnership (TSCTP), which is designed to help 
build long-term capacity to contain and marginalize terrorist 
organizations and facilitation networks; disrupt efforts to recruit, 
train, and provision terrorists and extremists; counter efforts to 
establish safe havens for terrorist organizations; and disrupt foreign 
fighter networks that may attempt to operate outside the region. 
Lasting resolution to the terrorist threat will require that the 
countries in the Sahel develop the capacity to counter this threat, 
along with other transnational threats like drug smuggling and human 
trafficking.

                         4. HUMANITARIAN CRISIS

    The human toll of these overlapping challenges has been enormous. 
Since the start of the fighting in northern Mali, more than 410,000 
people have become refugees or internally displaced. Of these, nearly 
200,000 people are displaced within Mali, and more than 210,000 Malian 
refugees have fled to Niger, Mauritania, and Burkina Faso. Algeria also 
hosts Malian refugees.
    In an effort to mitigate the effects of the complex humanitarian 
crisis in the Sahel, we are providing humanitarian and food assistance 
to those displaced by the conflict in northern Mali and those affected 
by the region's food crisis. For 2012 to date, the U.S. Government 
provided more than $445 million in assistance to the Sahel region, $119 
million of which was in support of emergency needs within Mali and 
among refugee populations outside of Mali. We support the work of the 
United Nations Regional Humanitarian Coordinator for the Sahel and his 
efforts to ensure access to affected populations and coordinate the 
humanitarian response, including contingency planning for possible new 
displacements as a result of a military intervention. We hold that the 
humanitarian response should remain civilian-led in order to ensure the 
neutral and impartial character of humanitarian operations.

        5. RESPONSE FROM PARTNERS IN THE INTERNATIONAL COMMUNITY

    We have encouraged greater international cooperation and 
coordination in developing a comprehensive approach to Mali's multiple 
crises and the greater Sahel. The U.N. Secretary General's recent 
appointment of a special envoy for the Sahel will help provide the 
needed facilitation and coordination. We will discuss the drafting of 
the Secretary General's integrated strategy for the Sahel, at a meeting 
in Rome meeting on December 7. We will also discuss coordination at a 
UNSC ministerial-level discussion on the situation in the Sahel to be 
convened by the Kingdom of Morocco on December 10 during its Presidency 
of the Security Council. UNSC Resolution 2071 provided a useful 
framework for addressing Mali's four overlapping challenges. It is 
important that the next UNSC resolution, which will be based in part on 
the U.N. Secretary General's report to the Security Council on Mali, 
ensures that the restoration of democracy, political negotiations with 
northern populations, and the humanitarian response receive the same 
level of priority as military preparations to oust AQIM.
    ECOWAS clearly has a very important role to play in coordination. 
Mali was a founding member of ECOWAS and 5 of the organization's 15 
Member States share borders with Mali. But we have to recognize that 
Algeria and Mauritania also border Mali, but are not members of ECOWAS. 
We have encouraged ECOWAS, the AU and our international partners to 
structure their engagements on Mali in a way that will incorporate 
Mali's neighbors, including Algeria and Mauritania.
    We are continuing to work with our international partners to 
develop a specific plan for any military intervention in northern Mali 
that includes details on cost- and burden-sharing for the intervention. 
We look forward to consulting with Congress further to ensure the 
support necessary to make our policy in Mali successful.
    In closing, addressing these four overlapping challenges will 
require comprehensive, sustained and dedicated regional and 
international support. The United States continues to encourage Mali to 
prepare for elections to restore democratic governance. We are 
committed to the sovereignty and territorial integrity of Mali. We 
support inclusive dialogue and negotiation to address the economic and 
social needs of marginalized groups in the north. We support 
reunification of Malian territory, both through negotiations with those 
Malians who support a unified and secular state and through well-
financed, -resourced, and -managed military action to dislodge 
terrorists. And we continue to address the humanitarian crisis in the 
Sahel region with assistance.

    Senator Coons. Thank you very much. Thank you, Assistant 
Secretary Carson, for your service and your very active and 
effective engagement with the region over such a long period. 
We're always grateful to have your testimony.
    Next we turn to Assistant Administrator for Africa, Earl 
Gast.

  STATEMENT OF EARL GAST, ASSISTANT ADMINISTRATOR FOR AFRICA, 
   U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Gast. Good morning, Chairman Coons and Ranking Member 
Isakson. Thank you for inviting me to speak before you today. I 
have submitted a longer statement for the record, but I thought 
I would use my time to briefly give you an update on the 
current situation and how it has affected our development 
programming, as well as outline some of the key factors that 
are needed for development to progress.
    The U.N. reports that 4.6 million persons in Mali are 
affected 
by food insecurity and in need of assistance. They are 
recovering 
from last year's food shocks, high prices, and the effects of 
conflict and displacement. Nearly 200,000 Malians have been 
displaced within the country, and another 210,000 have fled to 
neighboring countries.
    In the north, international and local humanitarian actors 
are able to provide assistance in many places. However, access 
still remains negotiated on a case-by-case basis, and it is 
often very inconsistent.
    Moving forward, a necessary component for solving Mali's 
complex crises is the establishment of a democratically elected 
government by April 2013, as called for by ECOWAS. The 
Government of Mali must pursue preparations for elections at 
the same time that it resolves the crisis in the north. To do 
this successfully, a legitimate process is needed to maximize 
the participation of populations that have been displaced by 
the violence.
    It is also necessary to develop provisions for how the 
north will be meaningfully included in a new government, and to 
engage the broader Malian population in a dialogue about 
national reconciliation.
    Prior to the coup, USAID's broad development portfolio 
included activities to strengthen democratic institutions, grow 
the agricultural sector, support literacy and education, 
improve community health and health systems, and manage 
instability and threats in the north, and Mali had made 
significant gains in these areas. Annual economic growth 
averaged more than 5 percent across the past decade, reducing 
the incidence of poverty from 56 percent to 44 percent by 2010. 
That was over a period of about 10 years.
    Mali liberalized its cereal markets. It opened up trade 
routes, and it improved conditions for doing business.
    What we have seen is that agricultural production has 
increased, particularly in areas where USAID support has been 
active.
    As a result of the March 2012 coup in Mali, the U.S. 
Government formally terminated assistance to the Government of 
Mali. However, our support to address the emergency health, 
nutrition, and food needs of the Malian people continues.
    In evaluating which programs can move forward in light of 
the applicable legal restrictions, we consider whether they 
provide essential life-saving assistance, whether they support 
children, strengthen food security, or advance U.S. foreign 
policy. We also consider operational issues, including 
efficient management and oversight. This case-by-case analysis 
ensures that there is careful consideration of the context 
surrounding a proposed activity.
    Before the coup, USAID was the largest donor supporting 
elections in Mali. Programs trained poll workers and improved 
election monitoring systems, strengthened political parties, 
and provided voter education.
    When the electoral support activities resume, provided the 
consent of Congress, assistance will help support a foundation 
for free and fair elections in Mali and a peaceful political 
exit from the current situation. A key issue will be ensuring 
the inclusion and participation of the internally displaced 
persons and refugees in the political process.
    We plan to expand our election assistance programming to 
include broader civic engagement activities to support national 
reconciliation as part of the return to an inclusive democratic 
Malian society. The only USAID-supported economic growth 
activities that are continuing in Mali are those that address 
food security under the Feed the Future Initiative. 
Agricultural assistance has focused on supporting farmers and 
herders to increase their productivity, strengthen market 
linkages, and increase resilience to drought.
    Some health sector activities have been approved to 
continue, including programs aimed at preventing maternal and 
child mortality through the provision of basic community health 
services, support of malaria testing and treatment, and other 
critically community-based health interventions.
    Our approach to development programming is affected by the 
current political and security situation in Mali and how it 
develops. USAID's Office of Transition Initiatives recently 
conducted an assessment to determine the feasibility and 
appropriateness of a transition program in Mali. If initiated, 
this program would allow the U.S. Government to respond to any 
opportunities and challenges that arise in the course of the 
transition, particularly in the areas of peace and security and 
reconciliation.
    The ability of the United States to resume full assistance 
will depend on a democratically elected government taking 
office. USAID continues to monitor current humanitarian needs 
and plan for possible future needs in Mali. Since the crisis in 
April, USAID has provided nearly $80 million to address 
humanitarian needs among Malians affected by drought and 
conflict.
    While initial harvest projections are positive for this 
coming year, the most vulnerable will continue to need 
additional assistance for recovery and resilience to future 
shocks. In the north we will continue to respond to needs when 
and where access allows.
    While USAID can provide immediate relief to the people, 
help set the foundation for democratic elections, and provide 
basic social services in the interim, Mali's future development 
must be led 
by the Malian people. This can only be achieved through a duly 
elected and participatory government against the background of 
peace and stability.
    Accordingly, it is critical that the Government of Mali and 
the Malian people be encouraged to pursue a simultaneous and 
multipronged approach to the return to democracy, 
accountability, and a negotiated peace. None of these gains 
will be sustainable in the absence of the other.
    Thank you for the opportunity to appear before you today, 
and I welcome any questions you might have.
    [The prepared statement of Mr. Gast follows:]

        Prepared Statement of Assistant Administrator Earl Gast

    Chairman Coons, Ranking Member Isakson, members of the 
subcommittee, thank you for inviting me to speak with you today. Mali 
is facing a complex emergency: a political crisis, recovery from a 
major drought, and threats to internal and regional security. I would 
like to provide an update on the current situation and how it has 
affected our programming, as well as outline the key factors that are 
needed for development to progress.

                     COMPLEX EMERGENCY ENVIRONMENT

    Insufficient rains during the 2011 Sahel agricultural season led to 
nearly 19 million people being at risk of food insecurity, nearly half 
of whom required emergency food assistance during 2012, according to 
national governments and U.N. data. In fiscal year 2012, the 
governments of eight Sahel countries and the U.S. Government declared 
disasters. Since the beginning of this year, the United States has 
responded with more than $445 million in programming across eight 
countries in the Sahel. Food insecurity was exacerbated by the conflict 
in northern Mali, which led to large population displacement inside of 
Mali and to refugee flows in neighboring countries, further straining 
the ability of both displaced people and host communities to cope with 
increased food insecurity.
    Although all indications are that this past agricultural season was 
above average, the U.N. reports that 4.6 million people in Mali are 
affected by food insecurity and will still need additional assistance 
in order to recover from last year's food shocks and deal with the 
ongoing high food prices and the effects of conflict and displacement. 
Humanitarian actors are currently refining monitoring of internally 
displaced persons (IDPs) and conducting individual registration of 
refugees. While this is ongoing, the numbers will fluctuate; the most 
recent estimates of IDPs inside of Mali stands at nearly 200,000 and 
the number of refugees is reported to be more than 210,000. In the 
North, the conflict has more or less stabilized for the moment, 
allowing international and local humanitarian actors to provide 
assistance in many places. Many markets are open and trade is flowing 
across borders, and while there are more than 20 humanitarian 
organizations currently active in northern Mali, access still remains 
negotiated on a case-by-case basis. The ongoing uncertainty has halted 
foreign and domestic investment in Mali, economic and tourism activity 
has slowed, and according to some estimates, 2012 economic growth 
projections have dropped from previous estimates of 6 percent to 
negative 1 percent or worse. It is also estimated that government 
revenues are one-fourth the level they were just 1 year ago and 
accordingly, that the majority of basic social services are being 
provided by humanitarian organizations.
    In October, the U.N. Security Council adopted an important 
resolution addressing the overlapping governance, security, and 
humanitarian crises affecting Mali. In November, ECOWAS announced a 
plan to send an African-led force into northern Mali to resolve the 
security crisis. The United States has called on the interim Malian 
Government to engage in negotiations in earnest and appoint a lead 
negotiator for the north, demonstrating commitment to unifying the 
country.
    The Government of Mali must pursue preparations for broadly 
inclusive, legitimate, democratic elections in parallel to negotiations 
and military intervention to resolve the crisis in the north. The 
restoration of democratically elected government in Mali by April 2013, 
as called for by ECOWAS, is a crucial component of the overall long-
term solution to Mali's current crises. We support efforts by the 
interim government to ensure a legitimate process that maximizes the 
participation of populations that have been displaced by the violence, 
to develop provisions for how the North will be reflected in a new 
government, and to engage the broader Malian population in a dialogue 
about national reconciliation.
    Progress on security and the restoration of democracy is also 
linked to accountability. Persons must be held accountable for abuses, 
including abuses against civilians that have occurred in the context of 
this crisis. Accountability supports our peace and democracy objectives 
by helping victims, and society as a whole, address past wrongs and 
move toward the future.

                     PAST DEVELOPMENT GAINS AT RISK

    Mali has been a strong partner, particularly in the area of 
economic growth through the U.S. Government's Feed the Future 
Initiative and the Millennium Challenge Corporation program. The 
current threats to Mali's stability and development are all the more 
concerning given the cooperation that has characterized relations 
between our governments and Mali's past development gains.
    Prior to the coup, in fiscal year 2011, USAID and the Department of 
State provided $137.9 million in bilateral foreign assistance to Mali. 
The broad development portfolio included activities to strengthen 
democratic institutions, promote inclusive and sustainable agricultural 
growth, support literacy and educational development, improve health 
status and health systems, and manage instability and threats in the 
North.
    U.S. assistance has advanced significant development gains in Mali 
through our longstanding partnerships. I would like to outline just a 
few examples of the progress that has been made. These development 
gains are precarious in the current situation, and underscore the 
promise of the Malian people and the importance of returning to 
democratic rule.
    Over the past decade, annual economic growth has averaged more than 
5 percent, reducing the incidence of poverty from 56 percent in 2001 to 
44 percent in 2010. In the past two decades, under-5 mortality was 
reduced from 255 to 178 per 1,000 live births--still ranking among the 
highest in the world, but demonstrating progress nevertheless. Access 
to education has increased from 20 percent of primary school children 
in school in the 1990s to 80 percent of children in school in 2011. 
Prior to the coup, print and radio media were vibrant and largely 
independent with 230 stations, many established with USAID support, 
reaching more than 80 percent of the population.
    Mali has liberalized its cereal markets, opened up trade routes, 
and improved conditions for doing business. The most vulnerable have 
survived drought and other disasters through the response and 
resilience provided by USAID's assistance. Agricultural production has 
increased in three regions where USAID has focused its assistance as a 
result of improved seeds and other inputs, extension services to 
improve farming methods and techniques, and farm-to-market linkages 
with greater private sector involvement.
    In addition, Mali has been a central participant in the Trans-
Sahara Counterterrorism Partnership (TSCTP) from its onset. Programs to 
address drivers of violent extremism were implemented in the Northern 
regions of Gao, Kidal, and Timbuktu, focusing on radio programming, 
basic education, out-of-school youth vocational training, 
microenterprise development, governance, and conflict prevention and 
peace-building. USAID established 10 FM radio stations reaching 385,000 
people, and extended national interactive radio instruction to 200,000 
students at 1,270 religious schools (madrasas). Prior to the coup, the 
program had just begun a significant expansion to increase the scope of 
activities and geographic reach in the north.
    While USAID has made significant contributions to Malian 
development through its long engagement in the country and the hard 
work and diligence of the Malian people, recent events stand to reverse 
these gains.

 LIFE-SAVING HUMANITARIAN ASSISTANCE CONTINUES WHILE ASSESSING FUTURE 
                                 NEEDS

    As the complex crisis began to unfold in Mali, USAID proactively 
supported early initiatives to mitigate the impacts of food insecurity 
through programs aimed at increasing agricultural production, improving 
diets, and strengthening livelihoods--all of which limited the impact 
of this year's shocks. Early fiscal year 2012 programs also focused on 
mitigating the impact of food insecurity through local and regional 
procurement of food, support for livestock health, and cash-based 
assistance to sustain adequate food consumption during the particularly 
hard lean season. In response to the conflict in the North, USAID 
scaled up assistance for IDPs, host families, and other conflict-
affected populations, both in southern Mali, where populations were 
already struggling with decreased food availability, and in the North, 
once need was assessed and security permitted the safe delivery of 
life-saving assistance. USAID worked closely with the State 
Department's Bureau of Population, Refugees, and Migration, which 
provided timely support to the Office of the U.N. High Commissioner for 
Refugees, the International Committee of the Red Cross, and other U.N. 
agencies and nongovernmental organizations to respond to the resultant 
refugee situation.
    For the current crisis, USAID has provided over $80 million to 
address humanitarian and food needs among drought and conflict affected 
Malians. In addition, the U.S. Department of State's Bureau of 
Population, Refugees, and Migration provided more than $40 million in 
humanitarian assistance for refugees in the region and conflict-
affected populations throughout the region.
    For the coming year, the humanitarian situation is likely to be 
similarly complex. While initial harvest projections are positive, the 
most vulnerable will continue to need additional assistance in order to 
promote their recovery from the previous drought and help build their 
resilience to future food crises. Many vulnerable people took on large 
debts or sold productive assets to cope with last year's shocks. In 
addition, the conflict in Northern Mali remains fluid with various 
groups continuing to compete for position and territory in advance of a 
presumed ECOWAS military intervention, which will likely result in 
additional internal displacement and refugee outflows in 2013. USAID 
continues to monitor current humanitarian needs and plan for possible 
future needs in Mali.
    In the year to come, we aim to support recovery from the past 
drought and build resilience to future droughts by helping the most 
vulnerable to diversify their livelihoods, improve agricultural 
productivity, improve livestock practices, and adopt behaviors that 
improve nutritional status. In terms of IDPs currently in southern 
Mali, many are congregating in urban areas. Recent evidence has shown 
that they are increasingly moving out of host family situations and are 
in need of housing and livelihoods. In response, USAID plans to provide 
resources to ensure appropriate housing, likely in the form of cash 
grants to assist with rent and support livelihood development. In the 
north, USAID will continue to support livelihoods, safe water, 
sanitation and security, as well as respond to newly identified needs 
when and where access allows. USAID, with the State Department, also 
supports U.N.-led regional humanitarian contingency planning for 
displacement and other likely humanitarian needs in advance of any 
military intervention in the North.

 PRESERVING THE FOUNDATION NEEDED FOR DEMOCRACY, PEACE, AND PROSPERITY

    In addition to the delivery of humanitarian assistance, USAID 
recognizes the need in times of crisis to deliver basic social services 
and thus preserve the foundation needed to resume a democratic, 
peaceful, and productive society. The continuity of carefully provided 
development assistance in Mali is critical to supporting a return to 
constitutional and accountable governance. It is also important to 
protecting the considerable development gains that Mali has achieved, 
maintaining stability and encouraging the economic and social 
conditions that facilitate a rapid rebound following the 
reestablishment of elected leadership.
    As you are aware, section 7008 of the Department of State, Foreign 
Operations, and Related Programs Appropriations Act, 2012 (SFOAA) 
states that no funds appropriated under titles III through VI of that 
act can be, ``obligated or expended to finance directly any assistance 
to the government of any country whose duly elected head of government 
is deposed by military coup d'etat.'' This restriction applies to 
assistance to the central, regional, and local governments of Mali.
    On April 10, 2012, the United States formally terminated assistance 
to the Government of Mali, consistent with coup restrictions in the 
SFOAA. Some of the activities that were terminated included capacity-
building programs for the Government of Mali Department of Health, 
public school construction, support for government efforts to increase 
agricultural production, and government capacity-building to spur 
commercial investment. Other assistance to Mali was also suspended on 
policy grounds, though certain forms of humanitarian assistance 
(including food assistance) and elections support were never terminated 
or suspended based on available legal authorities.
    Programs that are life-saving, critical assistance in health and 
food security, as well as democratic elections support programming, 
have been under consideration for resumption as part of a case-by-case 
policy and legal review. In evaluating which programs can move forward 
in light of the applicable legal restrictions, USAID and the State 
Department consider the policy importance of the activities--for 
example, whether the proposed activity provides essential life-saving 
assistance, supports children or strengthens food security, advances a 
strategic U.S. foreign policy objective--as well as operational 
considerations, including efficient management and oversight of 
funding. This case-by-case analysis ensures that there is a careful 
consideration of the context surrounding a proposed activity and the 
expected impact of such an activity if it is approved to move forward. 
The analysis also takes into consideration how to protect previous U.S. 
Government investments in the proposed activity.
    Before the coup, USAID was the largest donor supporting Mali's 
planned April 2012 elections, with activities that provided training of 
poll workers, political party strengthening, elections monitoring, and 
voter education. When the electoral support activities resume, 
assistance will help support a foundation for free and fair elections 
in Mali and a peaceful political exit from the current situation. A key 
issue in resuming assistance will be ensuring the inclusion and 
participation of internally displaced persons and refugees in the 
political process. USAID plans to expand its elections assistance 
program to include broader civic engagement activities to support 
national reconciliation as part of the return to an inclusive, 
democratic Malian society.
    The only USAID-supported economic growth activities that are 
continuing in Mali are those that address food security under the Feed 
the Future Initiative. Agricultural assistance has focused on 
supporting farmers and herders to increase their productivity, 
strengthen market linkages, and increase resilience to drought. This 
continued assistance is critical not only to preventing further 
deterioration of the food security situation in-country, but also to 
maintaining the stability of the most populated parts of the country 
that are outside of the conflict areas.
    Some health sector activities have been approved to continue in 
order to provide life-saving interventions. These include programs 
aimed at preventing maternal and child mortality through the provision 
of basic community health services, support of malaria testing and 
treatment, and other critical community-based health interventions.
    USAID has currently suspended all education activities in Mali that 
benefited the Government of Mali, which included teacher training, 
curriculum development, and other forms of education assistance. 
USAID's peace and security programs, including those under the TSCTP, 
are generally on hold pending further analysis of the operating 
environment and policy considerations. A minimal amount of community-
based programs that address peace-building and youth engagement are 
slated to continue.
    These decisions are affected by the current political and security 
situation in Mali, with recognition that these are complex challenges. 
The ability of the United States to resume full assistance will depend 
on a democratically elected government taking office.

                             FUTURE OUTLOOK

    The restoration of democracy and the return to a development focus 
in Mali is important to the region and to Africa as a whole. As the 
situation evolves, we remain vigilant to changes in the operating 
environment and the risks and opportunities involved.
    Lives and livelihoods are at great risk without the prompt 
resolution of the current political, security, and food crises. While 
these crises are complex and interrelated, they also vary with regards 
to their timeframes for resolution. Under the right conditions, Mali 
has the potential to be a major food producer for the region as well as 
advance trade and economic growth. Its history of partnership with the 
United States to improve health, education, and living conditions is 
noteworthy. While USAID can provide immediate relief to the people, 
help set the foundation for democratic elections, and provide basic 
social services in the interim, Mali's future development must be led 
by the Malian people. This can only be achieved through a duly elected 
and participatory government against a background of peace, stability, 
and accountability for past abuses. Accordingly, it is critical that 
the Government of Mali and the Malian people be encouraged to pursue a 
simultaneous and multipronged approach to the return to democracy, 
accountability, and a negotiated peace. None of these gains will be 
sustainable in the absence of the other.
    I thank you for the opportunity for today's discussion and invite 
any questions you have on our assistance to Mali and its development 
outlook.

    Senator Coons. Thank you, Assistant Administrator Gast.
    Next we turn to Ms. Amanda Dory from the Department of 
Defense.
    Ms. Dory.

   STATEMENT OF AMANDA DORY, DEPUTY ASSISTANT SECRETARY FOR 
       AFRICA, U.S. DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Ms. Dory. Thank you and good morning, Chairman Coons, 
Ranking Member Isakson. I add my thanks for the opportunity to 
speak about the overlapping challenges in Mali and the broader 
Sahel region this morning, and how the Department of Defense 
fits into the broader picture of how the U.S. Government is 
addressing this situation.
    Department of Defense is extremely concerned about 
instability in Mali and is working closely with our interagency 
partners to strengthen efforts at countering AQIM and 
affiliates, as well as supporting Malian efforts to restore its 
territorial sovereignty. Our approach is to support Mali's 
neighbors to isolate the terrorist threat and to enable ECOWAS 
and others to degrade AQIM while working to restore Malian 
sovereignty.
    This approach is consistent with section 7008 of the fiscal 
2012 State Appropriations Act, which proscribes certain 
assistance to the government of any country whose duly elected 
government is deposed by military coup. As a result of the coup 
in Mali, DOD 
has ceased mil-to-mil capacity-building efforts with the Malian 
military.
    Since January 2012, northern, primarily Tuareg groups have 
waged a rebellion, driven by longstanding political and 
economic grievances. This rebellion is the fourth such 
rebellion since Mali gained its independence in 1960. Although 
not caused by instability in Libya, the flows of militants and 
weapons from Libya have strengthened the rebellion and made it 
more difficult for the Malian authorities to combat it this 
time.
    In late March, the President was overthrown by forces loyal 
to Captain Sanogo, who then installed a junta government. In 
response, ECOWAS imposed sanctions, as did the United States 
and others. ECOWAS has since brokered an agreement with the 
parties to establish an interim government, but Captain Sanogo 
continues to influence decisionmaking in Mali as head of a 
military reform committee.
    Northern Mali has become a safe haven for extremist and 
terrorist groups, including AQIM and affiliates. As the 
Government of Mali lost control of its northern territory, 
these groups took over administration of northern cities and 
began imposing a harsh version of sharia law. This expanded 
safe haven and control of territory allows al-Qaeda and its 
affiliates to recruit supporters more easily and to export 
extremism. It also gives them greater control over illicit 
trafficking networks that provide an important element of their 
funding.
    Beyond the obvious threat to Mali's citizens and its 
neighbors, the growing terrorist presence in Mali also 
threatens U.S. citizens and our interests in the region, to 
include the ability to attack embassies and conduct kidnapping 
operations. Although AQIM has not demonstrated an ability to 
attack targets in the United States homeland, it does have a 
history of attacks in the Sahel and Maghreb, and has expressed 
an intent to target Europe.
    The United States approach is focused on restoring 
democratic governance and security in Mali. This will require 
democratic elections, a political settlement of legitimate 
northern grievances, the restoration of Malian sovereignty, 
focused pressure on AQIM, and continuing a civilian-led 
response to the humanitarian situation. Department of Defense 
is working with African partners to enable ECOWAS to conduct 
military planning for an African-led international military 
force called AFISMA. This is very much an African-led process. 
Our efforts are aimed at making our partners more capable both 
at combating the terrorist threat in their territories and at 
providing better security for their people more generally.
    The worsening situation in Mali also poses a risk to the 
surrounding governments in the region, especially Mauritania 
and Niger. The Trans-Sahara Counterterrorism Partnership is the 
interagency mechanism for coordinating U.S. Government 
capability efforts to enable governments in the Maghreb and 
Sahel to counter AQIM. Department of Defense, the State 
Department, USAID, and others work closely to coordinate our 
capacity-building efforts to ensure unity of effort with the 10 
participating partners, which include Mali and its neighbors.
    ECOWAS, with the support of other partners, is planning for 
a military intervention in northern Mali in tandem with the 
African Union's work on a comprehensive strategic concept for 
the resolution of the crises in Mali.
    Department of Defense, through U.S. Africa Command, is 
actively supporting the military planning effort through the 
provision of planning expertise. The broad strategic concept 
for that deployment is sound. More specific planning is 
underway to address myriad operational details.
    The U.S. Government is exploring options for supporting 
countries that contribute forces to the ECOWAS mission. This 
could include the provision of training and equipment to 
countries that would contribute forces to deploy as part of the 
AFISMA international military force and additional planning and 
advisory support.
    I'll stop for now and look forward to your questions.
    Thank you.
    [The prepared statement of Ms. Dory follows:]

      Prepared Statement of Deputy Assistant Secretary Amanda Dory

    Mister Chairman, members of the committee, thank you for the 
opportunity to speak with you today about the overlapping challenges in 
Mali and how the Department of Defense is responding to the situation.
    The Department of Defense is extremely concerned about the 
instability in Mali and is working closely with interagency partners, 
especially in the State Department, to strengthen our efforts at 
countering Al Qaeda in the Lands of the Islamic Maghreb (AQIM) and 
supporting Malian efforts to restore its territorial sovereignty. Our 
policy is to support Mali's neighbors to isolate the terrorist threat, 
and concurrently to enable the Economic Community of West African 
States (ECOWAS) to degrade AQIM while working to restore Malian 
sovereignty. This approach is consistent with the section 7008 of the 
FY 2012 State, Foreign Operations, and Related Programs Appropriations 
Act, which proscribes certain assistance to the government of any 
country whose duly elected government is deposed by military coup 
d'etat. As a result of the coup in Mali, DOD has ceased mil-to-mil 
capacity-building efforts with the Malian military.
    Since January 2012, northern, primarily Tuareg, groups, have waged 
a rebellion, driven by longstanding political and economic grievances. 
This rebellion is the fourth Tuareg rebellion since Mali gained its 
independence in 1960. Although the rebellion was not caused by 
instability in Libya, the flows of militants and weapons from Libya 
strengthened the rebellion and made it more difficult for the Malian 
authorities to combat it.
    In late March, President Ahmadou Toumani Toure was overthrown by 
forces loyal to Captain Amadou Sanogo, who then installed a junta 
government. In response, ECOWAS imposed sanctions, and the State 
Department reached the conclusion that a military coup d'etat had 
occurred, triggering the appropriations act restriction on most 
assistance to that government. As stated before, the Department of 
Defense followed suit, ceasing all DOD capacity-building efforts in 
Mali. ECOWAS brokered an agreement with the parties involved to 
establish an interim government, with Diouncounda Traore as President 
and Cheick Modibo Diarra as Prime Minister. Captain Sanogo continues to 
influence decisionmaking in Mali as head of a military reform 
committee.
    Northern Mali has become a safe haven for extremist and terrorist 
groups, including AQIM and affiliates. As the Government of Mali lost 
control of its northern territory, these groups took over the 
administration of northern cities and began imposing a harsh version of 
Islamic sharia law. This expanded safe haven and control of territory 
allows al-Qaeda and its affiliates to recruit supporters more easily 
and to export extremism. It also gives them greater control over 
illicit trafficking networks that provide part of their funding.
    The growing terrorist presence in Mali threatens U.S. citizens, 
interests, and partners in the region. AQIM maintains the ability to 
attack regional embassies and other Western interests, and to attack or 
kidnap Westerners in the region for ransom. Indeed the group is 
currently holding Western hostages. Although AQIM has not demonstrated 
an ability to attack targets in the United States, it does have a 
history of attacks in the Sahel and Maghreb, and has expressed an 
intent to target Europe.
    The U.S. approach is focused on restoring democratic governance and 
security in Mali. This will require democratic elections, a political 
settlement of legitimate northern grievances, the restoration of Malian 
sovereignty, increased pressure on AQIM, and continuing a civilian-led 
response to the humanitarian situation. The Department of Defense is 
working through African partners to enable ECOWAS to conduct military 
planning and limit the threat posed by AQIM. Failure to provide robust 
support to local partners at this stage could allow the threat to grow 
to a point where regional states could no longer address it. This is 
very much an African-led process and our efforts are aimed at making 
our partners more capable, both at combating the terrorist threat in 
their territories and at providing better security for their people 
generally.
    The worsening situation in Mali is also a risk to the surrounding 
governments in the region, especially Mauritania and Niger. The lack of 
Malian control in the north, the increasing number of refugees and 
internally displaced persons, and a history of Tuareg grievances in the 
region, raise the possibility that the situation in Mali could 
destabilize neighboring states. The food insecurity across the region 
further underscores the fragile political situation in the region.
    The Trans-Sahara Counterterrorism Partnership (TSCTP) is the 
interagency mechanism for coordinating U.S. Government capacity-
building efforts to enable governments in the Maghreb and Sahel to 
counter AQIM and has 10 regional partners. The Department of Defense, 
the State Department, USAID, and others work closely to coordinate our 
capacity-building efforts to ensure unity of effort. Mauritania and 
Niger are both critical partners in TSCTP and are acting proactively to 
defend their territories, but their capacity is limited. For those 
reasons, the Department of Defense--in close coordination with the 
State Department--is providing capacity-building assistance to these 
governments. These efforts include enhancing Mauritania's ability to 
collect intelligence, surveillance, and reconnaissance (ISR) and to 
project power throughout its territory. We are also supporting Niger to 
help it better control its borders and project power within its 
territory.
    ECOWAS, with the support of other partners, is planning for a 
military intervention in northern Mali in tandem with the African 
Union's Strategic Concept for the Resolution of the Crises in Mali. The 
Department of Defense, through U.S. Africa Command, is actively 
supporting the military planning effort through the provision of 
planning expertise. The broad strategic concept for that deployment is 
sound; more specific planning is underway to address operational 
shortfalls. We understand that the ECOWAS mission in the north will 
have the dual objectives of restoring Malian national sovereignty and 
countering al-Qaeda and its affiliates. The United States strongly 
believes in the need to address the parallel political, security, and 
humanitarian crises simultaneously.
    The U.S. Government is considering options for supporting countries 
that contribute forces to the ECOWAS mission. This could include the 
provision of training and equipment to countries that would contribute 
forces to deploy as part of the international military force and 
additional planning and advisory support. France and the European Union 
are also planning to provide significant support, and it will be 
critical to coordinate our efforts closely. The specific needs of troop 
contributing countries are not clear yet. Once we better understand the 
needs of the ECOWAS troop contributing countries, we will be able to 
assess how the U.S. Government and other international partners can 
best support that effort.

    Senator Coons. Thank you very much, Deputy Assistant 
Secretary Dory. I'm grateful to the panel and for the 
opportunity to explore further this complex and very 
challenging situation.
    If I might, first just on the question of sequencing, all 
three of you spoke to the interrelated and complex challenges 
on the path toward restoring democracy, dealing with 
humanitarian issues, addressing historic grievances in the 
north, and resolving security concerns in the north. In fact, 
Secretary Carson, I think you said in your testimony a response 
to any one of these challenges must not be dependent upon the 
achievement of another. Yet, they seem inextricably 
intertwined.
    For reasons of our own laws, which I support, we've ceased 
mil-to-mil aid. We've cut off a lot of vital aid that will then 
make more difficult, in some ways, the accomplishment of the 
security objectives, the electoral objectives.
    Please, if you would, in turn, just explain how you see the 
sequencing of events--elections, addressing regional and 
historic grievances in the north, restoration of sort of basic 
humanitarian support and services, and regional planning and 
execution--under an ECOWAS Malian-led, regionally led effort. 
How do these three things move forward, and is it possible to 
move forward on a security resolution without an election?
    Ambassador Carson. Mr. Chairman, a very good question. We 
have said that these four challenges must be handled 
simultaneously and in parallel. They must all be considered 
critical, and they all must be considered important. Addressing 
some of these challenges along one lane will move faster than 
along another lane, but we should not hold any one of these 
programs or efforts or streams of activity hostage to the 
success or the completion of another.
    For example, we have to move forward in continuing to 
provide humanitarian services and assistance to the north, to 
displaced populations to the extent that we have access to them 
through NGOs and through the international community, and we 
are doing that. We are continuing to push as hard as we can for 
political negotiations between Tuareg groups and nonterrorist 
groups in the north with the government. We are at the same 
time moving forward with discussions about military planning 
and preparation. And primarily on the democracy front, we do 
think that it's absolutely critical that the government not 
lose sight, in putting down a strategy, a roadmap, and a 
timetable for the return to democracy in that country.
    I mention this last because in many ways it's critically 
important. If, in fact, there are going to be successful 
political negotiations with the Tuareg and the other northern 
groups who have political and social-economic grievances, they 
have to have a legitimate government in Bamako that they can 
rely on to fulfill these agreements. This has been a failure in 
the past. Negotiations and deals have been made with the Tuareg 
and others, and the government in Bamako has reneged on them. 
There needs to be a credible government in Bamako to be sure 
that these things are going to be done.
    Equally, while we move ahead and work with ECOWAS and the 
international community on an African-led response to the 
terrorist problem in the north against AQIM and extremist 
groups, in the end, even if these terrorist groups are pushed 
out and eliminated, there will need to be a credible government 
in Bamako capable of extending services and providing security 
and authority over the areas that are recaptured from the 
north.
    So there is a centrality in all of this. There also needs 
to be a credible government there to be able to deliver 
humanitarian response and to build up resilience against 
recurring droughts and food shortages, all in parallel, 
simultaneously. We should not hold the continued movement 
toward democracy hostage to the success of the military 
operations. We should not hold military operations and planning 
hostage to the completion of a restoration of democracy. But we 
must keep all four of these things clearly as objectives and 
goals, moving simultaneously toward them.
    Senator Coons. Let me follow up with a more focused 
question about elections. In order to have a government that is 
credible in terms of negotiating some resolution to historic 
grievances that have led to four Tuareg rebellions, how 
critical is it to have northern participation in the election, 
and how is it possible to have meaningful northern 
participation in the election with 400,000 IDPs and refugees 
and with a very unstable security situation in the north? These 
two seem inextricably intertwined and very difficult. If you 
could just briefly address the question, how do you include 
northern participation in the election?
    Ambassador Carson. It can be done, and it would have been 
done in April 2012. The coup in March occurred approximately 6 
weeks before national elections were to be held. They would 
have been difficult elections in the north, but they could 
have, in fact, occurred.
    It's important to remember both a little bit about the 
geography as well as the population distribution. Although some 
55 percent of the north has been taken over by the rebellious 
groups, only 10 percent of Mali's population lives in the 
northern part of the country. Some 90 percent of the population 
would have been able to carry on with elections.
    But we also realize it is important not to exclude the 
north, but to include the north. Even today, it is possible to 
accommodate many, many of the northerners. We estimate that 
something in the neighborhood of 800,000 to 1 million people 
are residing in the north--resided in the north. We think that 
probably half of that population, as we've talked about, has in 
fact left--approximately 400,000 people--200,000 dispersed in 
refugee camps in the region, particularly in Mauritania, where 
one camp has 110,000 Malians. There are approximately 30,000 to 
40,000 in Niger and Burkina Faso, and 200,000 dispersed to the 
south.
    If there were elections, the elections could be held in the 
Mauritanian refugee camp, supervised by the UNHCR or with their 
assistance. This has happened before in other places, and those 
who are in the south as displaced persons could also be 
identified so that they could vote. It's not ideal but, in 
fact, it could occur.
    Historically, the north has voted in a smaller percentage 
of the population than any other zone, and we estimate that in 
the last national elections it accounted for a very, very small 
percentage of the national turnout. The north must be included 
because we believe that, aside from the AQIM threat, there is a 
legitimate concern that people in the north have not benefited 
the way people in the south have from education, from health 
care, infrastructure. So they must be accommodated because this 
is important.
    But we don't think that the movement toward the restoration 
of democracy should be held hostage to a complete military 
victory in the north. That's a date that is uncertain, and we 
may not know it. And there was tremendous instability across 
the north during the last national elections, as well.
    Senator Coons. Thank you.
    I'm going to turn to Senator Isakson for our next set of 
questions.
    Senator Isakson. Thank you, Mr. Chairman.
    Thank you, Ms. Dory, for your testimony. I have a question 
for you which I understand I may need to receive the answer in 
a secure area, which I would be happy to do. But in your 
statement, you say AQIM maintains an ability to attack regional 
embassies and other Western interests, and to attack or kidnap 
Westerners in the region for ransom.
    Given what happened in Benghazi, do you know if we have any 
evidence that it was Al Qaeda in the Maghreb that was a part of 
the attack on the U.S. consulate in Benghazi, and ultimately 
the death of Chris Stevens?
    Ms. Dory. I think in this setting we can say that AQIM 
played a role, and the investigations are still underway 
precisely how AQIM members interacted with others, and the rest 
is better left to a closed session.
    Senator Isakson. And we'll try and arrange that at some 
appropriate time.
    On that same point, you acknowledge that U.S. Africa 
Command is coordinating with ECOWAS on making planning for an 
intervention in the north. I guess that should be a potential 
intervention in the north. Is that correct?
    Ms. Dory. It's correct to say that the intervention is in 
the planning phases at this point. The intervention would be 
led by the Malian Armed Forces with support from the 
international military force. There is no construct or 
intention of having a U.S. boots-on-the-ground type of support 
to that intervention, but at this point we're providing 
planning and support exclusively, and we will look at 
opportunities to provide training support to those partners 
with whom we can engage.
    Senator Isakson. In your statement it says we understand 
the ECOWAS mission in the north will have dual objectives of 
restoring Malian national sovereignty and countering al-Qaeda 
and its affiliates. I understand the sovereignty goal. On 
countering al-Qaeda, you're talking about a significant, 
potentially significant military intervention. Do you think the 
people that you're planning to train are going to be 
sufficiently capable of taking on a force like al-Qaeda?
    Ms. Dory. For any military force to succeed, it's a 
combination of training, equipping, and will. I believe that 
the countries in the region are demonstrating the will and the 
intent to intervene. They are certainly capable to do some of 
the related missions, and for those where additional training 
and equipping is required, that's the role of the international 
community to provide that support.
    Senator Isakson. Thank you very much.
    Ambassador Carson, thank you, as always, for your tireless 
efforts on behalf of the African people and the United States 
interests in Africa. I appreciate the great job that you do.
    On the question that was raised by Senator Coons regarding 
elections and your statement that it's absolutely essential 
that the north be included in those elections--I think that's 
what you said, and I agree with that--we have a recommendation. 
I haven't talked this over with the chairman yet, but I think 
I'm right. You can tell me if I'm wrong.
    There's a gentleman in Nigeria who pulled off the Nigerian 
elections when Goodluck Jonathan was elected. He was the 
election commissioner. His name was Yaeger, if I'm not 
mistaken. Jaeger? I'd get him over there in a heartbeat and see 
if you couldn't get his help to do that because he overcame 
similar obstacles of violence, and it was in the north where 
they had their problems in Nigeria. So I just wanted to throw 
that out as possible help.
    Mr. Gast, on delivering--we've got a bunch of people hungry 
because we had a famine in Mali, particularly in the north. 
Since the coup, have we been disrupted from being able to get 
humanitarian aid to the people in Mali?
    Mr. Gast. Initially, Senator, I would say that that was the 
case. There was a period where no humanitarian assistance was 
being delivered. Since then, since the early months, our 
partners who are operating in the north have been able to 
negotiate access. For the most part, the population in need, 
their needs are being met.
    And so in addition to the displaced persons, whether 
they're refugees or internally displaced persons, as well as 
those who are still residing in the north, the needs are being 
met.
    Senator Isakson. Has the coup in the north caused a refugee 
problem in any of the bordering countries? Have there been 
people who have left Mali because of the disruption?
    Mr. Gast. Yes, roughly 210,000 persons.
    Senator Isakson. And where have they gone?
    Mr. Gast. Mainly to Mauritania. The majority have gone into 
Mauritania, and then a sizeable population going into Niger.
    Senator Isakson. Is USAID assisting in those camps to get 
humanitarian services?
    Mr. Gast. We are, but primarily through PRM.
    Senator Isakson. And PRM stands for----
    Mr. Gast. I'm sorry. That's the State Department 
Population, Refugee and Migration Bureau.
    Senator Isakson. You have the most acronyms of anybody I've 
ever heard.
    Mr. Gast. Sorry about that. [Laughter.]
    Senator Isakson. I'm going to have to learn acronyms one of 
these days.
    Mr. Gast. The short answer is yes, the needs are being met.
    Senator Isakson. Good.
    Ambassador Carson, the goal is to have elections by April. 
Is that right?
    Ambassador Carson. Yes, sir, by April or as soon as 
technically feasible.
    Senator Isakson. I'd just ask this question and get you to 
just opine on it. It's not really a specific question. But if 
you have a 20-year successful democracy in West Africa, which 
Mali was, and then you have a coup, things leading up to that 
coup had to take place which created some degree of 
instability, and also those things probably are still present 
to a certain extent and need to be overcome for an election. Do 
you know what led to the deterioration of the democracy that 
caused the coup?
    Ambassador Carson. The proximate cause of the coup was the 
series of military defeats that occurred in the north. These 
were military defeats at the hands of the Tuareg. The military 
felt very strongly that it was being underresourced, that it 
was not being given the kind of equipment and material support 
that it required to go after the Tuareg rebels and to fight a 
successful military campaign.
    The Tuareg, of course, were fighting because they felt that 
the government had not fulfilled its obligations under the last 
agreement signed in Algiers in 2006. This combined with growing 
discontent among some elite in the south with the corruption of 
the outgoing government under former President ATT were 
probably the precipitating reasons for the coup d'etat. 
Military discontent and elite disaffection in the south with 
corruption and poor governance and poor delivery of services.
    Senator Isakson. So Africa's biggest developmental problem, 
which is corruption, is still alive and well in Mali. Is that 
correct?
    Ambassador Carson. Indeed. I think that the former 
President, ATT, toward the end of his administration, was not 
resolving, and he was not responding effectively to crises in 
his own country. I think that he probably had begun to tune 
out, had not focused sufficiently on the economic and social 
issues in the south, and had neglected deeply the issues 
throughout the north. His leadership was starting to flag. His 
interest had flagged, and he was not doing a very effective or 
energetic job.
    Senator Isakson. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Isakson.
    We'll go to a second round of questions. First, if I might, 
to Deputy Assistant Secretary Dory, just what is the 
feasibility of plans to train and restructure and equip a force 
of 5,000 Malian Armed Forces? As was just referenced by the 
Assistant Secretary, the proximate cause of the coup in many 
ways was a series of military defeats, and the capacity of the 
Malian Armed Forces is a critical first step. What's the 
feasibility of that? Under what timeline is it possible to 
stand up a Malian security force that could actually 
meaningfully contribute to retaking the north? And if elections 
were held, what kind of role might the U.S. be prepared to play 
directly in training or supporting or equipping the Malian 
forces, rather than through regional partners?
    Ms. Dory. In terms of feasibility, I think that's the key 
dimension in the planning process, which is at what point do 
your missions align with your proposed concept of a maneuver in 
alignment with the force generation process? And you don't 
engage until you've assessed that the feasibility in a 
situation of moderate risk is accessible to the force on the 
ground. So the feasibility is built into the planning process, 
which continues.
    We're very fond of quoting former Commander in Chief, 
General Eisenhower, in the Department when it comes to 
focusing. On preparing for a battle, the criticality of the 
planning process, even above the plan itself, is that process 
of bringing the different military components together, 
identifying the scheme of maneuver, what the vulnerabilities 
are, how those can be addressed, and then interfacing in a very 
robust way with the political process, to refer to your second 
question.
    I think one of the concerns that we have at this point is 
that the military intervention planning has moved relatively 
robustly and is making excellent progress. The political 
development, relatively speaking, is underdeveloped as far as a 
political roadmap is concerned, whether it's the roadmap to 
elections, as Ambassador Carson was speaking to, or a roadmap 
for the negotiations between Bamako and the various disaffected 
elements in the north that are willing to renounce violence and 
engage in a negotiations process.
    Obviously, if we get to a point of elections being held and 
being able to resume assistance with the Malian Armed Forces, 
that will be an important step forward for the United States to 
be able to directly help the Malian Armed Forces, in addition 
to support to other troop contributing countries.
    The European Union, France, others have all already begun 
to reengage with Malian Armed Forces. So it's not as if there 
is absent support for them in the intervening period.
    Senator Coons. What lessons have we learned, if I might, 
both Ms. Dory and Mr. Gast? We were actively engaged--I think 
the USAID mission just celebrated a 50th anniversary in Mali. 
We were actively engaged in mil-to-mil training, equipping, 
support, and very broadly in democracy support and in trying to 
create and sustain a culture of democracy. What lessons are 
there that we might learn going forward about political 
failures, ignored domestic issues? Our rather abrupt 
requirement that we break off relations and support here has 
created a great difficulty, with regional consequences. What 
lessons would you suggest we learn from this?
    Mr. Gast. Thank you, Senator. An excellent question. I 
would say in the best of times, Mali is a country in crisis, 
and when one looks at the human development index, Mali is a 
country that ranks in the bottom dozen. As Assistant Secretary 
Carson mentioned, 90 percent of the population is in the south, 
and that population is also in need of services.
    So it is unfortunate that the government hasn't included, 
both in the delivery of services as well as in the governance 
of the country, the people of the north. And although we have 
implemented programs in the north, unless there is the 
connection between government and individuals, our programs 
aren't going to have the effect of people feeling as though 
they're part of the society.
    So there was an effort planned over the last couple of 
years, where the development partners, in tandem with the 
government, the central government, would deliver resources to 
the north, again with the government out in the lead and with 
the donors supporting. Unfortunately, the pace of that was too 
slow and not very effective.
    Another point moving forward I think is that we do need to 
concentrate on decentralization and making connection between 
government delivery of services and the individual at the 
community level.
    Ms. Dory. To build further on the comments about the 
resource base within Mali, clearly there are difficult choices 
for the government there involved between guns versus better 
types of decisions, and the resourcing for the Malian Armed 
Forces was insufficient, relatively speaking, to the building 
threat that they now face vis-a-vis AQIM. I think in terms of 
the United States support to the Malian military, we provided 
training and equips for many years now, but in relatively 
modest quantities, and I don't think that level of resourcing 
was commensurate with the threat either.
    I think the other lesson learned for us is to look beyond 
the tactical level of training that's provided by Department of 
Defense to consider what ways we might also engage in terms of 
institutional development with defense institutions, and that's 
something in the last several years where we are really ramping 
up within the Department the ability to provide advisors and 
other types of institutional reform engagement with various 
military partners to ensure that, just as we're looking at 
strengthening at the tactical level, we're also focusing on the 
institutional strength of these defense institutions.
    Senator Coons. Let me ask a last question. Then I'll turn 
to Senator Isakson.
    Ms. Dory, can we afford to wait what may well be a year for 
planning, training, assembly of a regional force for the 
completion of negotiations for a successful election? In some 
press accounts, AQIM in northern Mali is described as, at this 
point, the best funded, best equipped, most potentially lethal 
AQ affiliate in the world, and perhaps those accounts are 
overblown. But the suggestion that we should have an area the 
size of Texas controlled by terrorists who are engaged in drug 
trafficking, kidnapping, that have had an inflow of some 
sophisticated weaponry from Libya is to some quite concerning.
    Can we afford to wait a year for a regional solution, or is 
that the only way to achieve an appropriate security solution?
    Ms. Dory. I think one of the things that, as we look at the 
situation on the one hand, your question, can we afford to 
wait, on the other hand can we afford not to wait to allow the 
political environment to be more conducive to a successful 
military intervention and to allow the process of force 
generation to proceed, which does take time to train, equip, 
develop a force before it's employed. So in a sense, we have 
few choices but to allow those processes to unfold. Clearly, 
we're concerned that it takes time to do so, but I think we 
have a sense of moving forward as rapidly as feasible, as 
rapidly as the circumstances will allow us to do so, 
recognizing the tremendous leadership that the African partners 
have already shown both in terms of the political dynamics and 
the initiatives that are supporting this AFISMA planning 
process at present.
    Senator Coons. Thank you.
    Senator Isakson.
    Senator Isakson. I really just have one question. Ms. Dory, 
if, as Johnnie Carson said, or Secretary Carson said, if 
military discontent with the government support was a major 
contributing factor to the coup, and the military is going to 
be a major contributing factor to how successful an election is 
going to be, in your testimony you say there's a Sanogo, 
Captain Sanogo is in charge of the reform of the military for 
the interim government, do you know his capabilities and 
whether he's capable of pulling off the type of support it 
would take to bring the military together to support an 
election?
    Ms. Dory. Captain Sanogo as a field-grade officer is 
certainly 
capable in terms of the activities that he has already caused 
of creating a difficult condition by mobilizing others to 
support a coup. Whether he is capable of leading the difficult 
efforts to restructure an institution and to mobilize the 
resources that will be required, I would say that I question 
that at this point.
    Senator Isakson. Thank you very much. That's all my 
questions. Thank you for your testimony, all of you.
    Senator Coons. I'd like to thank our first panel. I'm 
mindful of the time. We have a four-member second panel. 
Senator Isakson and I, I know both, are very concerned about 
and interested in this and will follow up with each of you, 
perhaps with additional questions but also actions that are 
appropriate and ways in which we might work together 
collaboratively to support U.S. efforts in what is a very 
challenging and dynamic security, humanitarian and diplomatic 
context.
    Thank you very much for your testimony. We'll take a brief 
break while the second panel comes.
    [Pause.]
    Senator Coons. I'd like to now turn to our second panel on 
today's hearing about Mali and the path forward. Our second 
panel will include Mr. Fomunyoh, followed by Ms. Dufka, 
followed by Mr. Akuetteh, and then last by Mr. Mahmoud, who is 
joining us live from Bamako. This is our first attempt at live 
testimony by--forgive me, is it Google Hangout? [Laughter.]
    Senator Coons. I suspect no one has testified by Google 
Hangout, a thing I didn't know existed. So my thanks to the 
technical assistance and the policy support of several very 
capable folks who made this happen.
    Dr. Fomunyoh, if you might begin? Thank you and welcome, 
and we appreciate your repeat testimony before this 
subcommittee.

    STATEMENT OF CHRISTOPHER FOMUNYOH, SENIOR ASSOCIATE AND 
    REGIONAL DIRECTOR FOR CENTRAL AND WEST AFRICA, NATIONAL 
              DEMOCRATIC INSTITUTE, WASHINGTON, DC

    Dr. Fomunyoh. Thank you very much, Chairman Coons and 
Ranking Member Senator Isakson. On behalf of the National 
Democratic Institute, I appreciate the opportunity to discuss 
recent political developments in Mali.
    Today Mali faces three interwoven crises: An ongoing armed 
occupation of two-thirds of the country with a humanitarian 
emergency in the north that has displaced an estimated 450,000 
people; persistent political uncertainty in the capital, 
Bamako; and a severe food shortage that is affecting the entire 
Sahel subregion. If this crisis were allowed to fester, they 
would have a devastating and long-lasting negative impact on 
Mali and its neighbors in west and north Africa, especially 
countries such as Niger, Mauritania, and Algeria, with which 
Mali shares common and often very porous borders.
    Mali's current transition often looks like a three-legged 
executive because of the ambiguous division of power and 
influence amongst three main actors: Iterim President 
Dioncounda Traore; Prime Minister Cheick Modibo Diarra, who was 
given expanded powers under an ECOWAS-brokered agreement as the 
junta left power; and former coup leader Captain Sanogo, who 
continues to pull some levers of power from behind the scenes. 
Without strong political leadership and clear decisionmaking in 
Bamako, Mali's transition government would find it difficult to 
achieve its two primary objectives, which are to reconquer the 
country's northern regions and organize credible elections 
before May 2013.
    When I was in Bamako in October, the country seemed to face 
a conundrum of sorts in that some Malians argued that elections 
cannot be conducted in a peaceful and inclusive manner while 
the north is occupied by extremists. Others believed that the 
government in Bamako may lose its legitimacy at the expiration 
of the May 2013 ECOWAS deadline and that only credible 
elections can provide the next government with the legitimacy 
to tackle the country's challenges.
    Holding elections before May 2013 would require significant 
technical and political commitments on the part of Malians and 
development partners. Increasingly, Malians are demanding that 
the impending military operation in the north not preclude 
active preparations for national elections.
    Concrete steps would have to be taken to include displaced 
populations and Malian refugees in the electoral process, given 
that the electoral law of Mali allows for Malians residing 
outside of the country to vote. Working in collaboration with 
organizations such as the Office of the United Nations High 
Commissioner for Refugees that maintain statistics on displaced 
persons and refugees, the government could take steps to allow 
the now significant population of refugees in neighboring 
countries and internally displaced persons to vote while out of 
the three occupied regions of the north.
    At the same time, as logistically challenging as it may be, 
holding elections in major cities in the northern regions would 
be the strongest signal possible of Mali's exercise of 
sovereignty over its territory and of early steps at rebuilding 
its democracy.
    The transition government must continually and clearly 
communicate government plans and actions to the public and be 
cognizant of the potential crisis of legitimacy that looms on 
the horizon once the May 2013 date lapses.
    The international community needs to harmonize its approach 
toward the simultaneous pursuit of polls that could lead to a 
legitimately elected government in Bamako and military actions 
to retake the north. Contradictory public statements that take 
the military option off the table in the short or medium term 
may only serve to embolden the extremists, allowing them time 
to reinforce their presence in the north. Such declarations 
also exacerbate fears amongst many Malians that there may be a 
conspiracy afoot to break up their country.
    Active United States support for Mali's return to civilian 
democratic rule would bolster the hand of pro-democracy forces 
within the country and further reinforce the work of regional 
bodies such as ECOWAS and the AU that are deeply invested in 
Mali's return to democratic rule.
    Many Malians in the precoup era were proud of their 
country's democracy, although they envisaged consolidating it 
further by strengthening institutions and enhancing 
transparency and accountability in governance. Nine months 
after the March 2012 military coup, the false excitement about 
dramatic change in the early days of the coup has now been 
superseded by consternation over the cloud of uncertainty that 
now hovers over Mali.
    Despite the numerous challenges confronting Malian 
democrats today, I am optimistic that with concerted efforts 
and the right kind of support, Malians will be able to rebuild 
a stronger, renewed democracy that works effectively for all of 
the country's citizens.
    Thank you very much, Mr. Chairman, and I look forward to 
your questions.
    Senator Coons. Thank you very much, Dr. Fomunyoh.
    [The prepared statement of Dr. Fomunyoh follows:]

             Prepared Statement of Dr. Christopher Fomunyoh

    Mr. Chairman and members of the subcommittee, on behalf of the 
National Democratic Institute (NDI), I appreciate the opportunity to 
discuss recent political developments in Mali. Since Mali's first steps 
toward democratization in the early 1990s, NDI and other U.S.-based 
nongovernmental organizations have worked with Malian legislators, 
party leaders, and civil society activists to support the country's 
nascent democracy. Early this year, and with funding from USAID and 
other partners, NDI was providing technical assistance to citizen 
observers of the electoral process, fostering interparty dialogue, and 
taking steps to increase the participation of women and youth in 
political processes. I last visited Bamako in October, and met with 
civic and political leaders to gauge the level of election preparations 
and their overall commitment to a democratic transition.

                              INTRODUCTION

    Today Mali faces three interwoven crises: an ongoing armed 
occupation of two-thirds of the country and a humanitarian emergency in 
the north that has displaced an estimated 450,000 people \1\; 
persistent political uncertainty in the capital, Bamako; and a severe 
food shortage that is affecting the entire Sahel region.\2\ Should Mali 
rebound from these crises, Malian democrats and the international 
community would need to better understand the reasons for the political 
alienation of citizens, including youth, women, and ethnic minorities 
from the previous democratically elected government so as to avoid 
future backsliding. On the other hand, if the current situation were to 
be allowed to fester, they would have a negative impact on its 
neighbors in West and North Africa, especially countries such as Niger, 
Mauritania, and Algeria, with which Mali shares common and often porous 
borders.
---------------------------------------------------------------------------
    \1\ For more information on the humanitarian crisis in northern 
Mali, see UN HCR: ``Mali Emergency.'' Available: http://www.unhcr.org/
pages/4f79a77e6.html.
    \2\ For more information on the Sahel food crisis and its impact on 
Mali, see World Food Program ``Sahel Crisis: Country by Country.'' 
Available: http://www.wfp.org/stories/sahel-crisis-by-country.
---------------------------------------------------------------------------
    The military coup of March 2012 brought to the fore Malian 
disenchantment with the country's fledgling democracy under the 
previous government of President Amadou Toumani Toure. While the 
immediate trigger of the coup may have been the military's frustration 
with losses incurred in fighting separatist rebels and jihadists in the 
country's northern regions, the population in Bamako showed surprising 
indifference to the coup while it was in progress, and was willing to 
embrace the group of junior officers that staged the coup once 
President Toure agreed to step down. The overthrow of Toure surprised 
many in the international community, especially because it came 6 weeks 
before Presidential elections in which Toure was not a candidate. 
However, the country's democracy showed many weaknesses in the last 
decade, notably: consistently low voter turnout; allegations of 
widespread corruption; ineffective institutions; and the embrace of a 
``consensus politics'' model in which almost all political parties 
aligned their policy to those of the head of state.
    Shortly after the March coup regional organizations--notably the 
Economic Community of West African States (ECOWAS), the African Union, 
and the international community at large--strongly condemned the 
military's incursion into politics and hence denied the coup leaders 
legitimacy. By April 2012, ECOWAS had negotiated an agreement whereby 
the military junta relinquished power to the former speaker of the 
National Assembly, who became interim President and who appointed a 
Prime Minister after consultations with the junta.

                    COMPETING POWER BASES IN BAMAKO

    Under the agreement brokered by ECOWAS, the coup leader, Captain 
Amadou Sanogo, ceded power to the transition government. Despite these 
early signs of a swift return to civilian rule, the junta continues to 
influence decisionmaking in Bamako and thereby threatens to undermine 
prospects for a prompt resolution to the security crisis in the north 
and the timely organization of elections in 2013. Many months after the 
coup, Captain Sanogo and his allies dominated public space and 
discourse, with frequent appearances on the state-run radio and 
television station. By tapping into the frustrations of citizens who 
were marginalized by the previous government, Sanogo gained early 
support among unemployed youth and others who organized rallies in his 
favor. Also, some military officers with close ties to Sanogo were 
appointed to key positions in the transition government, such as the 
Minister of Defense and Veterans Affairs, the Minister of Territorial 
Administration, Decentralization, and Territorial Integrity, and the 
Minister of Internal Security and Civil Protection. As recently as 
October 2012, it was revealed that Sanogo had been appointed chairman 
of the Committee on Security Sector Reform in August--a position that 
allows him to wield considerable influence within the Malian military 
even as that position further undermines both the credibility of 
civilian authority in Bamako and the professionalism of the Malian 
Armed Forces.
    Mali's current transition often looks like a ``three-legged'' 
executive because of the ambiguous division of power and influence 
among three men--interim President Dioncounda Traore, who derives his 
power from the Malian Constitution and ECOWAS support; Prime Minister 
Cheick Modibo Diarra, who was given expanded powers in the initial 
agreement that forced the junta to give up power after the coup; and 
Captain Sanogo, who seems to pull the levers of power from behind the 
scenes.
    Upon President Toure's resignation on April 8, the Malian 
Constitutional Court conferred power to the then-President of the 
Malian National Assembly Dioncounda Traore. President Traore, a member 
of Mali's largest political party, ADEMA, is viewed by critics as 
emblematic of the ``old guard'' of the Malian political elite whose 
mismanagement contributed to citizen discontent and the military coup. 
In a brazen show of disrespect for President Traore, supporters of the 
military junta staged demonstrations and physically attacked Traore at 
the Presidential palace on May 21. He was later evacuated to France for 
medical attention, and returned 2 months later, but has seemed hesitant 
in asserting his leadership.
    After consultations with party leaders and the military junta, 
President Traore appointed Cheick Modibo Diarra as Prime Minister in a 
government largely composed of technocrats. Prime Minister Diarra is 
criticized by his opponents for his family ties to the former autocrat 
Moussa Traore, who ruled Mali from 1968-1991 (Diarra is Traore's son-
in-law) and his alleged closeness with Captain Sanogo. In a move that 
is seen as possibly intended to curb the personal partisan ambitions of 
Diarra and other members of the transition government, ECOWAS declared 
in November that none of the transitional leaders would be allowed to 
contest the Presidential elections of 2013.\3\
---------------------------------------------------------------------------
    \3\ The full text of ECOWAS's statement, Communiqe 311/2012, 
``ECOWAS determined on its two-pronged approach to resolving Mali 
crisis,'' dated November 12, 2012, is available at: http://
news.ecowas.int/presseshow.php?nb=311&lang=en&annee=2012.
---------------------------------------------------------------------------
    On August 20, Traore named a broad-based government of national 
unity. He also declared his intention to appoint two transition Vice 
Presidents and hold a national convention to validate his government's 
proposed structure and a transition roadmap. However, as of early 
December, the new transition bodies have not been created, and the 
government had yet to release a detailed roadmap for the elections or 
the transition process. Mali's 147-member National Assembly's mandate 
has been extended until the end of the transition; but its 
responsibilities could conflict with those of the National Transition 
Council (Conseil Nationale de la Transition-CNT), should one be created 
as proposed by President Traore.
    Against this backdrop, U.N. Security Council Resolution 2071 (2012) 
of October 12 was welcome news. It clarified the leadership structure 
in Bamako and strengthened the hand of the interim President by 
recognizing his legitimacy and urging him to present a timeline for 
elections. The resolution also reiterated its previous demands that 
remnants of the military junta refrain from further interference in the 
political process.\4\
---------------------------------------------------------------------------
    \4\ The full text of resolution 2071 is available at: http://
www.un.org/News/Press/docs/2012/sc10789.doc.htm.
---------------------------------------------------------------------------
    Without strong political leadership and clear decisionmaking 
structures in Bamako, Mali's transition government would be challenged 
to instill much-needed confidence regarding its ability to achieve the 
two primary goals of the transition which are to reconquer the 
country's northern regions in the immediate term and organize credible 
Presidential and legislative elections before May 2013. Similarly, the 
lack of such leadership would deprive development partners and the 
international community in general of a strong and reliable anchor in 
the Malian Government to facilitate partnerships and technical 
assistance in meeting these two goals.

      EVOLVING POLITICAL LANDSCAPE AND CRYSTALLIZING DISAGREEMENT

    Since March 2012, new political movements and alliances have 
emerged in Mali. Currently, there are seven major political groupings 
that are likely to influence the country's political transition and its 
future:

  <bullet> The Unified Front for the Safeguard of Democracy and the 
        Republic of Mali (FDR) is a grouping of political parties, 
        civil society organizations and labor unions that was opposed 
        to the coup in March and continues to speak out against the 
        national convention favored by Captain Sanogo. At various 
        times, the FDR also has called for the resignation of Prime 
        Minister Diarra.
  <bullet> The Alliance of Patriotic Democrats for an End to the Crisis 
        (ADPS) is another antiputsch grouping led by former Prime 
        Minister Soumana Sacko.
  <bullet> The Alliance IBK 2012 is a coalition supporting former Prime 
        Minister Ibrahim Boubacar Keita, a leading Presidential 
        candidate prior to the coup. Originally part of the FDR, the 
        Alliance IBK separated from the group in April but still shares 
        the FDR's staunch opposition to the coup and its advocacy for a 
        swift return to democracy.
  <bullet> At the other end of the spectrum, the Coordination of 
        Patriotic Organizations in Mali (COPAM) is the most prominent 
        organization affiliated with Captain Sanogo and the coup 
        makers. COPAM has organized large demonstrations in Bamako 
        demanding the resignation of President Traore and protesting 
        against foreign military assistance in the reconquest of the 
        north.
  <bullet> The Convergence for Saving Mali (CSM) is a coalition formed 
        in support of Prime Minister Diarra.
  <bullet> The Force for Reconciliation, Democracy, and Peace (FRDP-
        Mali-Ko) aligns itself with COPAM and others in staging 
        demonstrations in favor of Captain Sanogo.
  <bullet> The Coalition of Immigrants from the North (COREN) is a 
        heterogeneous group of northerners that seeks to draw attention 
        to the plight of Malians from the northern regions and urges a 
        swift reconquest of the three occupied regions.

    The recent controversy over the national convention on the 
transition roadmap is illustrative of a sharp political discord between 
junta sympathizers and their opponents that will continue to fester in 
the coming months. The FDR threatened to boycott the convention, 
claiming that participation had been stacked in favor of pro-junta 
forces and that its input had not been incorporated into the agenda. 
The transition government responded by delaying the convention until 
December 11-13, although the participation of the FDR and its allies 
has yet to be confirmed.

               IMMINENT MILITARY ACTION IN NORTHERN MALI

    From most indications, an international military intervention to 
assist the Malian military to retake the north is inevitable. The 
Malian Government, ECOWAS and the African Union have asked for military 
intervention as a matter of urgency. Extremists continue to consolidate 
their control over the three northern regions of Gao, Kidal, and 
Timbuktu; historic sites are being destroyed; and sharia law is being 
rigorously implemented in those areas. Many Malians are fearful that 
without military intervention, the partition of their country would 
become a geopolitical reality and extremist elements would have found a 
safe haven and enormous territory from which to destabilize other 
fragile democracies in the subregion and beyond. The persistent 
insecurity that now prevails in northern Mali would have a significant 
impact on the credibility of the 2013 electoral process if the 
estimated 450,000 displaced citizens are not able to vote and the 
government is not able to hold elections in the three occupied regions.
    The recent U.N. Security Council resolution on Mali lays the 
groundwork for regional and international support to the Malian 
Government in organizing a military operation to retake the north of 
the country. ECOWAS is prepared to deploy approximately 3,300 troops to 
assist in this effort. While dissonant voices have emerged with regard 
to the exact timing of such an intervention, it is hoped that regional 
and international efforts to support the Malian military will bolster 
the country's transition leadership, provide strategic guidance, and 
embolden a now weakened and demoralized Malian military. The role of 
countries such as Algeria, Mauritania, and Chad that are not members of 
ECOWAS, but share a common border with Mali and/or have combat 
experience in the Sahel, would be crucial in such a military 
undertaking.

     TWO BENCHMARKS ON THE HORIZON: MILITARY OPERATION IN THE NORTH
                       AND COUNTRYWIDE ELECTIONS

    The first half of 2013 will be of paramount significance to Mali's 
political transition as two critical benchmarks would have to be met: 
the ECOWAS-mandated May 2013 deadline for the holding elections and 
swearing in of a civilian democratically elected President; and the 
launch of a military operation to retake the country's three northern 
regions.
    When I was in Mali in October, the country seemed to face a 
conundrum of sorts in that some Malians argued that elections cannot be 
conducted in a peaceful and inclusive manner while the north is 
occupied by extremists; others believed that the government in Bamako 
may lose its legitimacy at the expiration of the May 2013 deadline 
granted by ECOWAS, and that elections would therefore need to be held 
by this date so as to elect a government with the legitimacy to tackle 
many of the country's challenges. Holding elections before May 2013 
would require significant technical and political commitments on the 
part of Malians and development partners, as a number of challenges 
would have to be addressed with urgency. Increasingly, Malians are 
demanding that the impending ECOWAS-African Union (AU) military 
operation not preclude active preparations for national elections.
    As of today, the transition government has yet to release a 
credible roadmap for elections. While an audit of the voter register is 
underway, the government has not consulted other elections 
stakeholders, such as political parties and civil society 
organizations, to obtain their buy-in to the process. The government 
has not yet updated the voter register, nor has it defined how to 
facilitate voting by displaced citizens and Malian refugees in 
neighboring countries. As a result, many Malians are doubtful that the 
transition will be as broadly inclusive and participatory as originally 
hoped. For example, according to the electoral law, Mali's voters list 
should have been updated from October 1-December 31, 2012. This did not 
occur, even in the regions of the country where the security situation 
is stable. Hopefully, when the political decision is made to proceed 
with election preparations, the Minister of Territorial Administration 
would invoke a section in the electoral law that allows for an 
exceptional update of the national voter registry outside of the usual 
October-December timeframe.
    Concrete steps would have to be taken to include displaced 
populations and Malian refugees in the electoral process, given that 
the electoral law allows for Malians residing outside the country to 
vote. Working in collaboration with organizations such as the Office of 
the United Nations High Commissioner for Refugees (UNHCR) that maintain 
statistics on displaced persons and refugees, the government could 
update the voter rolls to include the now-significant population of 
refugees in neighboring countries and internally displaced persons. 
Some analysts speculate that even if the military operation succeeds in 
liberating key cities in the north relatively quickly, some remnants of 
occupying forces may retreat into the more remote areas of the north. 
Under these circumstances, holding credible elections in major cities 
in these northern regions would be the strongest signal possible of 
Mali's exercise of sovereignty over its national territory and of early 
steps at rebuilding its democracy. Organizing elections in the north 
would be challenging. Nevertheless, it would reassure Malians that the 
country is on track to restoring national unity and civilian democratic 
rule across its entire territory.

            LOOKING FORWARD--A LOOMING CRISIS OF LEGITIMACY

    As the electoral deadline of May 2013 approaches, questions about 
the continued legitimacy of the Malian Government will likely be raised 
by various domestic constituencies and their international allies.
    An early release of the electoral timeline would help calm 
political tensions and assure Malians that the transition government 
has the political will to work toward restoring the country's democracy 
and rebuilding its democratic institutions. The recent declaration by 
ECOWAS leaders that members of the transition government would not be 
permitted to stand as candidates in the 2013 polls is an important step 
in building citizen confidence in the impartiality of those leaders as 
they execute the transition. Public commitments by these officials 
themselves would provide further assurances and invite greater citizen 
engagement in the electoral process.
    The transition government must continually and clearly communicate 
government plans and actions to the public, and be cognizant of the 
potential crisis of legitimacy that looms on the horizon once the May 
2013 date lapses.

                               CONCLUSION

    For decades, Mali faced governance challenges, even as its 
leadership continued to profess its commitment to democracy. Indeed, 
the quick unraveling of Mali's democracy is yet another reminder that 
multiparty elections alone, even when regularly held, are not a 
guarantor. As we seek to assist Malian democrats forge a path toward 
elections in 2013 and restore the country's democratic institutions in 
the post-election phase, we must draw hard lessons from this experience 
to make sure that future institutions are more inclusive, effective, 
and transparent in their management of public affairs and resources.
    To do so, the international community must maintain pressure on 
coup leaders to return definitively to the barracks and avoid any undue 
influence on the governance and electoral processes. Development 
partners can also contribute to a credible transition by encouraging 
meaningful, inclusive dialogue around political and electoral issues, 
as many political party leaders and civil society activists feel 
excluded from decisionmaking process. They should provide more 
technical assistance to Mali's shaky transition government in 
finalizing and widely publicizing, as soon as possible, a credible 
electoral timetable. The sooner such a timetable is released, the 
greater prospects will be for higher public confidence in the country's 
prospects to transition back to civilian democratic rule. At the same 
time, the international community needs to harmonize its approach 
toward the simultaneous pursuit of polls that would lead to a 
legitimately elected government in Bamako and military operations to 
retake the north. Contradictory public statements that take the 
military option off the table in the short or medium term may only 
serve to embolden the extremists, allowing them time to reinforce their 
presence. Such declarations also exacerbate fears among many Malians 
that there may be a conspiracy afoot to break up their country.
    Restoration of U.S. aid programs to Mali would have a positive 
impact on the country's ability to tackle many of the political and 
technical challenges I have outlined today. The U.S. Government can be 
a valuable interlocutor with Malian partners in shaping transition and 
electoral processes. While some of the missteps or sluggishness of the 
past few months can be attributed to inexperience on the part of Malian 
transition leaders, renewed American involvement in Mali during this 
critical period could enhance prospects for successful and peaceful 
elections in the coming year. Active U.S. support for Mali's return to 
civilian democratic rule would also bolster the hand of pro-democracy 
forces within the country and further reinforce the work of regional 
bodies such as ECOWAS and the AU, that are deeply invested in Mali's 
return to democratic rule and have benefited from American support in 
the past.
    Once touted as a model of democratic progress in West Africa, Mali 
quickly lost this standing after the coup in March. Many Malians in the 
pre-coup era were proud of their country's democracy, although they 
envisaged consolidating it further by strengthening institutions and 
enhancing transparency and accountability in governance. Nine months 
after the March 2012 military coup, the false sense of dramatic change 
of the early days of the coup have been superseded by consternation 
over the cloud of uncertainty that now hovers over Mali because of 
developments in the northern regions and political maneuvering in 
Bamako. Despite the numerous challenges confronting Malian democrats 
today, I am optimistic that with concerted efforts and the right kind 
of support Malians will be able to rebuild a stronger, renewed 
democracy that works effectively for all of the country's citizens.
    Thank you, Mr. Chairman and members of the committee.

    Ms. Dufka.

STATEMENT OF CORINNE DUFKA, SENIOR RESEARCHER, AFRICA DIVISION, 
               HUMAN RIGHTS WATCH, WASHINGTON, DC

    Ms. Dufka. Thank you. Thank you, Chairman Coons and Ranking 
Member Isakson, for providing Human Rights Watch the 
opportunity to testify this morning. It is a great honor to be 
here.
    Since April, I've conducted four research missions to Mali 
during which I have interviewed hundreds of victims and 
witnesses to serious abuses and war crimes in both the 
Islamist-controlled north and government-controlled south. I've 
also spoken with a wide variety of other individuals, many from 
the armed factions from various different groups, government 
officials, civil society and religious leaders. I am also in 
daily phone contact with Malians all over the country who keep 
me abreast of ongoing violations and dynamics.
    This hearing comes at a critical time not only for Mali, 
but for Mali's partners, including the United States, as they 
struggle to establish a vision and actionable plan to put Mali 
back together in a way that doesn't simply turn back the clock 
to December 2011. I will today briefly characterize our 
findings on abuses by all factions, very briefly. It's more 
detailed in the testimony that I've submitted. And then I'll 
highlight four issues the United States might consider as it 
crafts a response to the crisis, and perhaps more importantly, 
the issues that gave rise to it.
    With respect to Islamists groups, since consolidating their 
control in the north, Ansar al-Dine, MUJAO, and AQIM have 
become increasingly repressive as they tighten their grip over 
the population, among whom, I wish to emphasize, they have 
precious little support. Abuses committed include frequent, 
often severe beatings, arbitrary arrests against those engaged 
in haram or forbidden behavior such as smoking, drinking, 
watching television, listening to music, or having music on 
one's cell phone. Countless women that I have interviewed have 
been beaten and detained for failing to adhere to their dress 
code.
    The Islamists have also carried out summary executions, 
including the January execution in Aguelhoc of some 70 Malian 
soldiers, which is, to date, the single most serious war crime 
of this conflict.
    Also in Aguelhoc, Islamists stoned to death a couple for 
adultery. A witness I spoke with described seeing the man and 
the woman crouch, hands bound, in a hole as the Islamists 
hoisted large rocks, shattering the skull of first the woman 
and then the man. As well, they have carried out eight, at 
least eight limb amputations as punishment for theft.
    These punishments were meted out by the Islamic police, 
often after a summary trial before a panel of hand-picked 
judges, many of them foreign. These trials can only be 
described as a cruel parody of justice.
    They have also recruited hundreds of child soldiers as 
young as 11. Dozens of witnesses I've interviewed, and a few 
children as well, have seen these kids in training camps 
manning checkpoints, guarding prisoners, and applying sharia. 
In advance of the planned intervention, they have ramped up 
recruitment. Indeed, a witness I spoke with just yesterday had 
just seen, just visited three of these camps within the Gao 
region in which she saw many, many children being planned.
    The Islamists have also destroyed mausoleums, shrines, 
amulets, ritual masks, both in Timbuktu as well as the Dagon 
Country, which hold tremendous significance for Malians. They 
have as well denied Malians, who have a rich musical tradition, 
to be able to play or listen to their local music. Quoting one 
witness, ``They have erased our history. They have taken all 
joie de vivre from our lives.''
    With respect to the MNLA, they too have perpetrated 
numerous and often systematic abuses after taking over the 
towns of Menaka, Goundam, Niafounke, and Gao. These included 
the abduction and brutal rape, often gang rape of numerous 
women and girls, widespread pillaging of hospitals, schools, 
aid agencies, government buildings, and use of child soldiers. 
The MNLA has done absolutely nothing to rein in their forces, 
as well as even acknowledge that these abuses have taken place.
    Briefly, with respect to the Malian Army, the coup, of 
course, has led to a striking deterioration in discipline and 
command and control within the army. For example, very 
worryingly, in the days after the attempted countercoup on 
April 30, security forces directly under the command of Captain 
Sanogo disappeared at least 21 soldiers allegedly implicated in 
it. A witness I interviewed told me how at 2 a.m. on May 3, the 
soldiers removed at least 21 men from Kati barracks, put them 
bound and blindfolded into a military truck, and they have not 
been heard from since. Many other victims of torture described 
how they were stabbed, starved, burned with cigarettes, and 
forced at gunpoint to sodomize one another.
    The security forces have also intimidated opposition 
voices, including journalists who have been abducted by masked 
gunmen, beaten and dumped on the outskirts of Bamako after 
being warned to stop criticizing the military. More recently, 
they have done the same thing. They have tried to abduct, 
descended upon the home of a local rapper who wrote a song 
critical of the military.
    Outside of Bamako, soldiers have detained and executed 
numerous men accused of collaborating with the groups in the 
north. Most of these victims were Tuareg and Arab. In 
September, 16 Islamic preachers were executed within a military 
camp in Giabali, and in October eight Tuareg herders were 
executed by soldiers also in Giabali.
    Again, there has been no meaningful effort to investigate, 
much less hold accountable, those implicated in any of these 
incidents, and as others have noted, disturbingly, Sanogo, who 
we believe--we have testimony suggesting he is directly 
implicated in the torture and disappearances, was rewarded with 
the position of being put in charge of security sector reform.
    Briefly, with respect to recommendations, I want to 
highlight four areas. The first is to publicly raise abuses by 
all sides. The U.S. Government has been very strong in their 
condemnation of Islamic behavior, of the Islamic forces, as 
well as Sanogo. However, I would say they also have to widen 
that view, widen that criticism of the Malian Army outside of 
Sanogo, as well as the MNLA. The United States should press all 
parties to investigate and prosecute those responsible, as well 
as stand firm against any attempt to include an amnesty as part 
of an eventual negotiation.
    The second area addresses rising ethnic tension. Mr. 
Chairman, over the last 8 months I have observed an alarming 
increase in ethnic tension. Perceptions of neglect or 
favoritism by the Malian Army or international community of one 
community or the other has led communities to seek redress for 
their grievances, including through the formation of armed 
militias and apparent organized plans to settle scores outside 
the legal framework.
    I cannot emphasize enough how impunity, not only for Path 
violations during Path Tuareg rebellions, but also more recent 
violations, is fueling this tension on all different sides from 
all different ethnic groups. If not addressed, I believe these 
tensions could, in the short term, lead to incidents of deadly 
collective punishment, and in the long term sow the seeds for 
future violence.
    To address this, I urge the U.S. Government to do a few 
things. No. 1, as the negotiation process takes shape, push 
Mali to ensure the grievances of all northern residents are 
heard, not just those who have taken up arms. The second would 
be press the Malian Government to adopt a communication 
strategy that addresses the rising level of ethnic tension and 
to respond to hate speech that incites violence. No. 3, through 
USAID, support Malian civil society to be able to support 
community radios and peacebuilding initiatives, and that's 
something that should not wait. It should be done now. And the 
fourth would be to ensure the situation in Mali is discussed by 
the Atrocities Prevention Board.
    The third area I want to address, and this gets to Senator 
Isakson's question, is adopt policies that address the 
underlying causes of this conflict. Mali's recent crisis is 
rooted in years of deterioration in the institutions--the 
police, the army, the judiciary, the Parliament--that should 
have protected and represented them adequately. Mali's partners 
turned a blind eye to corruption scandals, criminality creeping 
into state institutions, some predatory behavior by the 
security forces, and lagging development indicators 
countrywide, but especially in the north.
    Mali's judiciary, which could have mitigated some of these 
problems, was severely neglected, allowing a dangerous culture 
of impunity. And as we have seen, narcotraffickers, extremist 
religious figures, and those with ethnic agendas have taken 
advantage of this rule-of-law vacuum. The United States must 
support programs in the short and long term that serve to 
strengthen Mali's stressed institutions.
    The last point is, in advance of the planned military 
intervention, I urge the United States to press for a strong 
human rights component within this military intervention to 
avoid some of these problems that we have seen with AMISOM 
intervention in Somalia, which failed to adequately monitor 
human rights abuses, particularly indiscriminate shelling.
    Thank you, and I look forward to your questions.
    Senator Coons. Thank you very much, Ms. Dufka.
    We have just about 15 minutes left in our hearing.
    Mr. Akuetteh.

   STATEMENT OF NII AKUETTEH, INDEPENDENT POLICY RESEARCHER, 
                         WASHINGTON, DC

    Mr. Akuetteh. Mr. Chairman, Ranking Member Isakson, good 
morning, and thank you very much for including me. But I really 
appreciate that you are focusing on such a grave problem in 
Africa, so I can't thank you enough. I submitted a longer 
statement, so I'll just take a few minutes to highlight some of 
it, but I would like for it to be kept in the record.
    Senator Coons. Yes, it will.
    Mr. Akuetteh. I mentioned that some issues in the way Mali 
descended, we have to keep certain things in mind. One of them 
is the connection with Libya. The Tuareg rebellion had occurred 
many times, but this particular one did not occur because of 
incidents--did not start because of incidents inside Mali but 
because of weapons that flowed over from Libya. And I think it 
is interesting that Libya does not share a border with Mali, 
but troops and men went all the way, and it seems to me the 
question should be raised about why they were not seen. Mali's 
Army had been trained in the Trans-Sahara counterterrorism 
program, and yet they collapsed very quickly. So it seems to me 
that also raises questions.
    But the core of my testimony is I am suggesting four 
improvements in U.S. policy, particularly in the State 
Department. Mr. Chairman, I notice that some people look at the 
crises as three, others say four. I think that the 
international community, it would be good to actually add a 
fifth dimension, which is contagion, because I think it is 
important, whether three or four, they are inside Mali. But the 
reason that ECOWAS is so concerned is the real risk that this 
will not be contained inside Mali. So I think it's important to 
stress contagion.
    Second, I think that the State Department, if we listen 
carefully, my reading of their priorities is elections first, 
by all means, and then negotiate. As for intervention, maybe.
    Frankly, I think that should be the other way around, that 
it's very hard to have real elections with so much insecurity 
around, and populations have moved. So the security issue is 
extremely important, and I'm reminded of what happened in Cote 
d'Ivoire, where they took 5 years to do an election and still 
questions were raised. I fear that if you rush elections in 
Mali, you are giving people all kinds of excuses who lose to 
stir up trouble and make allegations. So it's important to 
establish enough security so the elections can be credible.
    I also think that while the grievances of Tuaregs must be 
addressed and minority issues are very important, Mali has 
almost 60 ethnic groups. So we must be careful that it's not 
seen as favoritism toward Tuaregs, which might suggest to other 
groups that the way to get attention is to create the same kind 
of problem.
    And the fourth and final area of policy recommendation that 
I'm making, Mr. Chairman, is actually that I do think that 
since 9/11 and United States counterterrorism policy in Africa, 
I think the problem in Mali should be an opportunity and an 
occasion to do a thorough review of the whole strategy, 
because, for instance, the Trans-Sahara counterterrorism issue, 
as I mentioned, its job was to make the Malian Army strong, and 
yet the army collapsed very quickly. The Operation Flintlock, 
which used Mali as the base to train soldiers, again it raises 
the question why did the Malian Army collapse so quickly. So I 
think this is an opportunity to do a very thorough review and 
raise a lot of questions.
    My particular question, because I really think that 
democracy is so important, that in the training of African 
soldiers, I would very much like it if the respect for civilian 
leadership and for democracy is stressed, that the first thing 
the soldiers have to learn is to respect their civilian leaders 
and the democracy process, and any training to make them better 
fighters must come second.
    I thank you very much again for including me, and I'll be 
happy to answer questions.
    [The prepared statement of Mr. Akuetteh follows:]

                   Prepared Statement of Nii Akuetteh

                                OPENING

    Chairman Coons, Ranking Member Isakson, other subcommittee members, 
thank you. The personal honor of your invitation is my smaller reason. 
The much bigger reason is this: Being African-born and a strong 
believer in democracy, I very much appreciate that you are devoting the 
moral prestige and other priceless resources of this great institution 
of democracy to the deadly cocktail that is assailing Mali. It has and 
continues to inflict much suffering on millions of Malians. 
Furthermore, it is contagious and poses grave threats to the rest of 
Africa, to Europe and even to the United States. In walking me through 
the process, your staff astounded me with their competence, promptness, 
patience, courtesy and sense of humor. I am grateful to them as well.

                         INTRODUCTORY OVERVIEW

    Tuesday, January 17, 2012, (45 weeks ago) is a very important date 
in understanding Mali's dizzying decent. That was the day heavily armed 
Tuaregs (hardened former fighters for Libya's late leader, Col. 
Gaddafi) fired opening shots and reignited the latest Tuareg 
secessionist war against Mali.
    Other 2012 dates are also vital. One is Thursday, March 22, 2012, 
when Capt. Amadou Sanogo and his fellow putchists chased their 
commander in chief away from the Presidential palace, declared 
themselves the government, and effectively killed the infant that is 
Mali's much admired democracy. It is crucial to keep in mind their 
professed reason: Allegedly, the democratically elected President, 
Amadou Toumani Toure, himself a former general, had not prosecuted the 
war in the north well enough; the treasonous soldiers bragged they 
would do a far better job.
    Within hours, the world--with one curious exception--sharply and 
emphatically rejected the coup. ECOWAS, the African Union, the U.N., 
even the international financial institutions, were all scathing in 
their condemnation.
    The lone exception was the U.S. administration. Initially, 
following an interdepartmental meeting, the State Department 
spokesperson was strangely sympathetic to the coupmakers, questioning 
whether this was really a coup, and speaking about the coupmakers' 
``legitimate grievances,'' about the government needing to negotiate, 
and taking days before announcing that some aid has been suspended as 
required by law. Happily this puzzling equivocation from the State 
Department has since disappeared.
    From Mali's neighbors, there was not the slightest hint of such 
equivocation. By promptly closing land-locked Mali's most vital 
borders, ECOWAS forced the reluctant coupmakers to hand over power to 
an interim regime which in turn was forced to agree to a 1-year 
deadline for holding the previously scheduled legitimate national 
elections.
    The next memorable day came 15 days after the coup. The Tuareg 
secessionists--allied with three jihadist fighting groups--completed 
conquest of 66 percent of Mali (a territory rivaling France in size). 
On Friday, April 6, from Paris, they declared the conquered territory 
the independent nation of Azawad. This proved a phantom independence. 
And rather brief. Not a single country recognized the declaration.
    Much worse soon followed. The Tuareg secessionists, the MNLA, had 
implemented their war project by forming alliance with three jihadist 
groups--AQIM, Ansar Dine, and MUJAO. Within weeks, the jihadists turned 
on their former allies killing and chasing them out of the population 
centres in the north, taking over and announcing their real intent--an 
Islamic rule based on strict sharia law. What has transpired since is 
more legitimately described as a reign of terror: summary executions; 
amputations and floggings; forced marriages; conscription of child 
soldiers; confiscation of private property; enforcement of dress codes; 
banning of much music; and destruction of ancient Islamic shrines 
recognized by the globally as World Heritage monuments. Understandably, 
a large proportion (perhaps half) of Malians in the north who are able 
to have fled. That non-Malians (from as far away as Pakistan and 
Afghanistan) have played leading roles only makes the situation more 
intolerable.
    Two more dates must be mentioned. On Sunday July 15, with little 
territory remaining under their control, some Tuareg secessionist 
leaders told Reuters they were renouncing independence.
    Mr. Chairman, my condolences. Reason: I am acutely aware that the 
remaining date carries pain for Americans and especially for this full 
committee--Tuesday September 11, 2012. That day witnessed the murder of 
Ambassador Chris Stevens and three other patriots in Benghazi, Libya. 
The relevance to Mali is this: Though investigations are ongoing, there 
have already been believable hints that some of the murderers of 
Ambassador Stevens are jihadists who came from northern Mali.
    There is a reason for my recounting these many dates in 2012: They 
show that Malians and friends could be forgiven for regarding this year 
as our own annus horribilis.
    And yet this one year of agony does not reflect the entire 
historical journey traveled by Mali and its people. For West Africans 
and hundreds of millions of others, admiring fascination with Mali goes 
back centuries to the ancient empire. After military dictatorship 
dampened the pride brought by 1960 independence, people again held 
their heads high when ``the soldier for democracy,'' Amadou Toumani 
Toure, in 1991 and 1992, stopped the massacre of protesting women and 
children, humanely but decisively eased out the dictatorship, set the 
democratic experiment on course, and then gave up power to an elected 
politician. Ten years later, there was little surprise when popular 
sentiment brought him back to power on the strength of two landslide 
electoral victories.
    However, there was disappointment when, many years into the Toure 
administration, Malians and outsiders began recounting stories of 
corruption in Mali.
    More than disappointment, concern was the emotion evoked in some 
observers by one other observation. What triggered the concern were the 
incentives provided to the Malian Government by U.S. antiterrorism 
strategy in general and in particular by three elements--the Trans-
Sahara Counter-Terrorism Program, AFRICOM, and Operation Flintlock. 
Some observers including me felt unease that, as operated, these 
elements in U.S. policy might prove an ineffective and even 
counterproductive strategy for combating terrorism is Mali, and perhaps 
in other African countries as well.
    That is not to say terrorism does not bother Africa. To the 
contrary. Terrorism and violent extremism remains the gravest of 
threats to Africa--by itself and because terror attacks makes it 
impossible for Africans to respond to other challenges and 
opportunities. The attacks must be fought robustly and effectively. The 
war waged in Algeria by what is now AQIM; the Embassy bombings in Kenya 
and Tanzania; al-Shabaab in Somalia; Boko Haram in Nigeria; the World 
Cup bombing in Kampala--all these have killed and maimed thousands of 
innocent Africans, even when the declared targets have been Western 
officials, installations, and interests. Clearly, defanging violent 
extremists across the continent saves African lives and otherwise 
serves African interests.
    There are two parts to the concern about U.S. counterterrorism 
strategy in Mali. One is overreliance on militarization instead of on 
democratization, reconciliation, and development. The other is a near-
exclusive focus on incoming foreign jihadists such as AQIM at the cost 
of paying even greater attention to the home-grown challenge of Tuareg 
grievances.
    When in January, Tuareg fighters abandoned Col. Gaddafi, and 
returned to Mali to launch the latest of their latest secessionist 
wars, there was a sinking feeling that our worst fears had happened.

               FOUR SUGGESTED IMPROVEMENTS IN U.S. POLICY

    Mr. Chairman, in June, I paid close attention to the Mali testimony 
that Ambassador Carson gave in the other chamber. In the ensuing 6 
months, I have tried being an even keener observer of the Mali 
situation: monitoring events on the ground in Mali and dissecting the 
words and deeds of the major stakeholders--Malian factions; ECOWAS 
countries, especially Burkina Faso, Cote d'Ivoire, Niger, and Nigeria; 
non-ECOWAS neighbors especially Algeria, Mauritania, and Chad; the 
African Union; the European Union, especially France, Germany and 
Italy; the United Nations, and above all, the United States.
    In his June testimony, Ambassador Carson reacted as follows to 
Malian and African vows to restore territorial integrity, ``We think an 
ECOWAS mission to militarily retake the north is ill-advised and not 
feasible.'' Months later, however, at the U.N. and in Algiers to push a 
reluctant Algeria, Secretary Clinton said kinder things about military 
intervention. And last week at Howard University, here in Washington, 
another senior State Department official said this: ``We support the 
efforts of the government of Mali, ECOWAS, the African Union, the 
United Nations, neighboring partners, and others in the international 
community to prepare a military response as necessary, in accordance 
with international law, to restore the unity of Mali.''
    The pattern is unmistakable: U.S. policy toward Mali is evolving--
for the better, in my opinion. This is commendable.
    Despite this progress, however, some concerns remain. Put another 
way, further improvements are possible and needed in current Mali 
policy. Consequently, the heart of my testimony today is to highlight 
four such concerns/improvements. They are unequal, varying in 
individual importance and weights.
    The first concern/improvement is semantic and may appear trivial 
and unimportant. But I believe this appearance is deceptive because 
precise semantics reflect clear thinking which is a pre-requisite for 
effective problemsolving.
    A cocktail of four crises. That is how today's Mali situation is 
described by the U.S.--and by all the major global actors and even most 
analysts. The four are: the Bamako-centred broken democratic rule; the 
deeply rooted, recalcitrant secessionist aspiration and wars of the 
Tuaregs; Mali's loss of integrity over most of its territory and the 
control of that area by violent religious extremists, significant 
numbers of whom are foreigners; and the humanitarian crisis centred in 
the north, epitomised by mass displacement of the population and fueled 
by environmental deterioration, by the secessionist war, and by harsh 
jihadist rule.
    While agreeing that these four crises are afflicting Mali, I add a 
fifth dimension--contagion--which must be recognized and explicitly 
included in the discussion and analyses. By contagion I refer to the 
clear and present danger that Tuareg irredentism, large population 
displacements, and most critically, jihadist violence, will not be 
contained within Mali's borders. Indeed they are already boiling over 
and destabilizing other countries. And not just in Africa: Jihadist 
violence especially has not been shy in declaring Europe and the U.S. 
as its prime targets.
    To a significant degree, the international community already 
appreciates the high contagion risk in Mali. Contagion and enlightened 
self-interest--and nothing else--explain why Paris, Bonn, and Brussels, 
are so seized by the agony an impoverished African country. I am 
convinced that were the risk of contagion negligible, Mali would get 
little or no global attention.
    But I am also convinced that significant benefits would flow from 
explicitly adding contagion--correctly counting Mali's crises as five. 
Put another way, I believe the American and European general publics, 
if they became more persuaded that the jihadists in Mali have them in 
the cross-hairs, would be far more supportive of rapid reaction to help 
the Malians. In other words, recognizing the high risk of contagion 
would mean much less foot dragging and hand-wringing outside Africa 
when it comes to extinguishing the jihadist threat in Mali.
    Nor can it be denied that such foot dragging does exist. 
Irrefutable evidence is the reason. Exhibit A, to my mind, is time: 
Seven months after 66 percent of Mali was violently sliced off by 
irredentists who were then shoved aside by their own jihadist allies 
who immediately began terrorizing and pushing out much of the populace, 
the U.N. Security Council has still not authorized an alarmed Africa to 
use force. Perhaps the Council has a convincing argument for such 
nonchalance. If so I have not heard it. Which makes me wonder: Would 
Security Council authorization would be this slow in coming had the 
amputee country whose cultural heritage are being smashed been a rich, 
powerful global player--Brazil, China, Canada, Germany, or Italy?
    African disappointment and frustration at the delay is 
unmistakable. This is apparent in a leaked letter sent last Thursday by 
the Africa Union's head, President Boni Yayi of Benin to U.N. Secretary 
General Ban Ki-moon. The letter described U.N. foot dragging as 
``beneath the expectations of the African Continent as a whole,'' 
warned that this ``will be interpreted as a sign of weakness,'' and 
advised that ``What we must avoid today is giving the impression that 
we lack firmness in the face of determined terrorists.''
    But reluctance to urgently and forcefully dislodge the terrorists 
from Mali is not confined inside the Security Council. Sadly, and 
hoping I am wrong, it seems apparent in U.S. policy too. As observed 
above, compared to June, U.S. today is noticeably more serious about 
Mali's terrorism crisis.
    But this progress is clearly limited and insufficient. The State 
Department continues to discourage a swift restoration of Mali's 
territorial integrity and a forceful end to the terrorizing and 
displacement of northern Malians which has continued for 7 months. This 
conclusion seems inescapable after scrutinizing what last week's Howard 
University statement said about intervention and contrasting that with 
its stance on elections and negotiations.
    On national elections across Mali in 2013: ``The United States 
firmly believes that Mali's interim leaders must continue preparations 
in earnest to hold elections in this timeframe simultaneous with 
efforts to restore territorial integrity. We continue to encourage the 
interim government to set a date for elections. The interim government 
should build on the preparations that were undertaken before the 
aborted April 2012 elections and hold elections as soon as possible 
with as much of the country as possible . . . The return of democracy 
must not be held hostage to the security agenda.'' [emphasis added].
    On negotiations with the brutal terrorist and secessionist groups: 
``We urge the interim government to find ways to effectively address 
northern grievances in a peaceful manner . . . We also welcome the news 
that representatives of MNLA have retracted the declaration of 
independence of the north, and key figures in the MNLA and Ansar al 
Dine have declared their readiness to negotiate with the interim 
government. Mali's interim government must demonstrate its commitment 
to negotiations by appointing a lead negotiator for the north.'' 
[emphasis added].
    And on the overwhelming Africa desire to militarily eject the 
jihadists and restore Mali: ``We . . . recognize that an African-led, 
multinational force, supported by the international community, may be 
necessary to assist the Malians to dislodge extremists from the north. 
. . . '' [emphasis added].
    Reflecting on these pronouncements, I conclude thus: The two top 
priorities of the Department are first, elections by May 2013, and 
second, negotiations with northern groups including the irredentist 
MNLA and the jihadist Ansar Dine.
    Sugar-coating feels impossible; so here goes: I disagree 
respectfully but firmly with these State Department priorities. Instead 
I believe the number one priority must be swift African-led 
international military intervention (with zero European and American 
boots on the ground, none) to restore Mali. Intervention must be given 
higher priority over elections and over negotiations--vital as those 
two are. To flip one of the State Department's assertions: Re-asserting 
Mali's sovereignty, restoring its territorial integrity, and ending the 
terrorizing of its population--these steps must remain top priority and 
they must not be held hostage to hasty ill-planned elections in only 
parts of the country, nor to endless haggling with violent, 
untrustworthy groups of questionable legitimacy. But there is another 
State Department argument that I do fully endorse, ``Any military 
response in Mali should be well planned, managed, and resourced, and 
account for civilian security . . . '' No question about that. But the 
bottomline remains that I believe the State Department's current 
priorities--putting security and Mali's restoration on the back 
burner--have it backward.
    Several arguments support my critique. To begin with, ECOWAS and 
the African Union clearly prefer making security and Mali's restoration 
the number one priority. President Yayi's fresh letter is only one 
indicator among many of this strong African preference. This is not to 
deny that forceful U.S. advocacy of a different strategy can be 
extremely valuable in such a global effort. But it is to say that an 
unmistakable contradiction must be acknowledged: dismissing what 
Africans are loudly demanding negates the following assertion routinely 
made by State, ``The United States supports the principle of regional 
ownership . . . ''
    A sequencing question also arises in this disagreement over 
priorities. State is right in saying that all of Mali's crises are 
critical and all must be addressed simultaneously. However, to govern 
is to choose; this observation is a cliche precisely because it is so 
true. Consequently, choices and setting of priorities must be made in 
allocating resources to Mali's crisis. This poses a question: Is it a 
better sequence to first establish reasonable peace and security in 
Mali as a condition for properly preparing, organizing, and holding 
credible elections across the country? In contrast to State, my answer 
is emphatic yes.
    Now it may well be that current Malian conditions and other 
information justify the opposite sequence preferred by State: 
prioritizing hasty, ill-prepared truncated elections in only part of a 
war-torn country over the restoration of sovereignty, law and order 
over 66 percent of Mali's territory. But if so, such conditions and 
information must be woven into a convincing argument. So far, I have 
not seen such an argument; I am yet to see the persuasive case made.
    One's preferred images for seeing military intervention in Mali 
constitute another important consideration in the priorities 
disagreement. In a way it is a variation on the sequencing question. 
Two images capture my view: Proper military intervention in Mali to me 
is akin to a fire brigade that must race to a dangerous fire in a 
crowded neighborhood. My other image is of intervention as the sending 
of a SWAT team to a hostage situation. Either way, I see the proposed 
African-led military intervention as a first responder. And like all 
first responders, it must still respond first to bring to the swiftest 
end to a dangerous emergency wreaking havoc.
    To reiterate: In northern Mali, 7-month-old dire havoc must be 
swiftly ended. For Malians the havoc takes the form of summary 
executions; amputations and floggings; forced marriages; conscription 
of child soldiers; confiscation or destruction of private property; 
enforcement of dress codes; banning of much music; destruction of 
ancient Islamic shrines recognized by globally as World Heritage 
monuments; and forcing much of the northern population into involuntary 
exile.
    For the international community the havoc also includes contagion--
the reality that the jihadists will keep trying to attack bigger fish, 
especially France and the United States.
    The urgent need to immediately halt northern Mali's havoc is 
crucial. This urgency drives my strong recommendation that the State 
Department should upend its current priorities and adopt a new one 
where military intervention is deemed a higher priority than elections 
and negotiations--even though those two are very important. This 
recommendation is the second--and by far the most important--among the 
four policy improvements that this testimony is advocating.
    Now to the third desired policy improvement. It emanates from 
observed American attitudes toward the Tuareg minority in Mali. Mr. 
Chairman, in the very first paragraph of this testimony I identified 
myself as an ardent believer in democracy. Vanity was not the reason. 
Nor does self-pity drive this other self-description: I am a double 
ethnic minority--within both of the two countries I love: Ghana where I 
was born and the United States where I immigrated almost four decades 
ago. Rather, I offer the self-observations as possible explanations of 
political sentiments I hold: I happen to possess deep empathy for 
minorities everywhere and minority rights to me are no mere academic 
concept.
    Notwithstanding these sentiments, I am today concerned about 
romanticization of the Tuareg political project in Mali. I fear this 
may be coloring and tilting U.S. policy views and positions. 
Specifically, evidence abounds of persistent U.S. pressure, throughout 
2012, for Mali to concede ``that the Tuaregs and others in northern 
Mali have legitimate political and socioeconomic grievances'' and to 
negotiate with them. Washington has exerted this pressure on Bamako and 
on ECOWAS, even though throughout the spring of 2012, when the MNLA 
Tuareg had the choice, they rejected negotiation and opted to plunge 
Mali into war, dismemberment, and other dire consequences. And even 
though the MNLA cynically formed alliances with brutal Islamists like 
Ansar Dine--whose leadership contains ethnic Tuaregs as well. I fail to 
understand the U.S. is running so much interference for a minority that 
rejected negotiation, unleashed devastating war, broke Mali's 
territorial integrity and ceded most of the country to marauding 
jihadists.
    Two reasons drive my concern. Democracy, equal justice and peaceful 
coexistence within multiethnic African countries constitute the big 
one. According to one U.N. data source, Tuaregs form two related 
branches among Mali's 57 ethnic groups. At 813,000 they constitute 5 
percent of today's population of 16,319,000. Given this slim proportion 
within much diversity, extra care must be taken to avoid creating the 
impression of unfair ethnic favoritism for the Tuaregs--especially one 
purchased through the barrel of a gun.
    African colonial history is my other reason. After carving up 
Africa, 19th century European imperialists embarked on strategies of 
divide, weaken, and rule. They vigorously promoted division by 
romanticizing some groups while demonizing others; by rewarding others 
while depriving others; and by stirring up mutual prejudice, suspicion, 
and antagonism. The baleful consequences still plague Africa more than 
a century later. The visible signs discernible from Rwanda to Nigeria, 
and from Kenya and Congo to Cote d'Ivoire are only the tip of an 
iceberg. This politicized ethnicity may even apply to Mali's Tuaregs. 
Some analysts suggest that in addition to legitimate grievances, the 
four secessionist wars of the Tuaregs have been driven by a superiority 
complex. Allegedly, with independence approaching, French colonialists 
encouraged the lighter-skinned Tuaregs to refuse to live under the rule 
of Mali's darker-skinned majority, presumed to be inferior. These 
analysts claim that this is a reason why the very first Tuareg 
rebellion against Bamako's rule happened within days of independence.
    The third policy improvement this testimony is advocating then is 
this: The U.S. must put in place effective mechanisms and bend over 
backward to ensure that its pronouncements and positions are not 
perceived as playing ethnic favorites in Mali.
    Policy review and adjustment is the fourth and final improvement 
this testimony calls for. The policy in question is America's 
counterterrorism strategy not just in Mali before the implosion, but 
across the Sahel-Sahara area and from 9/11 to today.
    If a reason for the review is required, perhaps the following can 
suffice. A question has persisted since Mali's implosion almost a year 
ago: Why did the collapse of the much-admired 20-year democracy happen 
so fast and with such apparent ease? To find answers, all possibilities 
must be explored. As noted above, some observers, several years ago, 
had become concerned at the counterterrorism strategy's close 
militaristic embrace of Mali's young democracy. Consequently, one 
hypothetical possibility is that the strategy inadvertently 
contributed. After all, Captain Sanogo, the soldier who inflicted the 
fatal blow, had been trained multiple times by the U.S. as part of the 
strategy.
    I have a preferred list of constituent elements within the strategy 
which must be scrutinized for their possible impact on Mali. They must 
include AFRICOM, the Trans-Sahara Counter Terrorism Program (TSCTP), 
Operation Flintlock, and the curriculum used to train African soldiers. 
The policy review must establish if any of these produced unintended or 
unforeseen consequences in Mali. If so the consequences and their 
causal mechanisms must be fully understood. One narrow practical reason 
why is obvious. Any detrimental consequences in Mali must be guarded 
against in Mauritania and Niger where TSCTP is being operated right 
now. A broader positive reason can also be advanced for the policy 
review: It could lead to improvements that make more effective the 
overall strategy that the U.S. has used to fight the scourge of 
terrorism across Africa since 9/11.

       THUMBNAIL ANSWERS TO SELECT QUESTIONS IN INVITATION LETTER

    Mr Chairman, your invitation letter posed several questions. They 
have proved extremely helpful in shaping the preceding bulk of my 
testimony. In this rump section I will provide direct thumbnail answers 
to a select few.

    Q1: What recommendations do you have for U.S. policy as we consider 
next steps in addressing the simultaneous political, security, 
humanitarian crises in Mali?

    As the bulk of the testimony elaborates, I make four strong 
recommendations. Washington must:
    (a) Highlight the high contagion risk in Mali and designate 
contagion as crisis #5.
    (b) Change the State Department's current priorities and place 
military intervention to dislodge terrorists from northern Mali above 
elections and negotiations.
    (c) Take precautions to prevent U.S. from being perceived as 
practicing ethnic favoritism to benefit Tuaregs.
    (d) Conduct thorough, in-depth review of U.S. counterterrorism 
strategy, especially how the component elements of AFRICOM, TSCTP, 
Operation Flintlock, and training of African soldiers worked or not in 
Mali and then adjust policies accordingly.

    Q2: Why were we so unprepared for the recent coup in Mali, a 
country which was largely heralded as a stable democracy for so many 
years? What lessons can be learned from this experience as we look at 
U.S. policy toward Mali and the region?

    This first is among the questions that can only be well answered 
following a thorough policy review. One superficial answer is that 
presumably we, like everyone else, were taken in by the appearances and 
failed to drill below the surface. Regarding causes, chances are that 
many causal factors contributed to Mali's implosion. Good candidate 
hypotheses to test include: (a) the extreme fragility of all infant 
democracies; (b) the incentive to focus on foreign terrorists diverted 
Mali's attention from aggrieved domestic groups such as the Tuaregs; 
(c) why TSCTP failed to make a capable fighting force of Mali's army; 
(d) the failure to detect and neutralize armed Tuaregs moving into Mali 
from Libya; and (e) the failure to come to the aid of Bamako once 
Tuaregs from Libya struck in January and to give sufficient help in 
defeating returning Tuaregs. Lessons, like causes, are best extracted 
after thorough policy review. Excellent early warning systems that 
target domestic grievances may be one likely lesson. Another might be 
to change curriculum for training African soldiers to imbue them with 
sacred and robust respect for civilian control.

    Q3: What are the regional implications of AQIM's presence in 
northern Mali and what is the extent of the threat to U.S. interests?

    The implications cannot be good--especially the more time AQIM has 
to create a thriving haven in northern Mali, a territory as big as 
France. Significantly, it has already been reported that AQIM personnel 
probably participated in inflicting the U.S. national trauma that was 
the Benghazi murder of Ambassador Stevens and his three colleagues.
    Being no expert, I must defer to the judgement of the countless 
experts advising both State and DOD--except to observe that with time 
the threat to the U.S. can only worsen.

    Q5: How can the government in Bamako negotiate more effectively 
with the 
Tuaregs?

    I believe legitimacy on both sides is the key, a critical 
prerequisite. The Bamako government must be democratically elected. 
Similarly, Tuareg leaders negotiated with must also be legitimate 
representatives of the community and its subgroups. We must not be 
satisfied with unelected, self-appointed Tuareg individuals. This again 
bolsters the sequence that this testimony advocates: security first, 
then impeccably prepared democratic elections to reveal Mali's real 
leaders both in Bamako and among Tuaregs.

    Q6: How might military operation impact the humanitarian situation 
in the north and plans for elections, and what is a realistic timetable 
for holding elections in 2013?

    Clearly, war would affect the humanitarian situation for the worse. 
However precautions can and must be taken to minimize the detrimental 
effects. This is because the risks and consequences of not intervening 
and leaving northern Mali at the mercy of the brutal jihadists, those 
risks and consequences are far worse than intervention and they will 
only deteriorate with time.

    Q7: What are potential implications of holding elections without 
the participation of the northerners in the north?

    I believe this runs a high risk of opening up a messy post-
elections Pandora's box. Sore losers would make all manner of claims. 
At worse they could ignite small wars and stir up other trouble across 
a land already torn by war and instability.
    This risk bolsters the argument for a sequence of restoring Mali 
first and thereafter making impeccable plans and preparations for free 
and fair elections nationwide.
    Cote d'Ivoire's recent trauma may be instructive. Ex-President 
Laurent Gbagbo's claim of rigging failed to convince the world 
precisely because there had been 5 years of pains-taking and 
transparent electoral preparations. The Gbagbo claims would likely have 
been more credible, the world would have been more divided and the 
Ivorian civil war would have been longer and bloodier had the elections 
been less well prepared.

                                CLOSING

    Mr. Chairman, let me express again my deep appreciation for this 
focus on a grave situation afflicting countless Africans. I hope that 
my opinions are of some use. I would be glad to respond to any 
questions or clarifications you might have.

    Senator Coons. Thank you very much, Mr. Akuetteh.
    Mr. Mahmoud, you've been quite patient. You are, if I 
understand correctly, in Bamako at the U.S. Embassy, and I'm 
grateful for your taking the time and for being quite patient 
in joining with the six other witnesses we've already heard 
from. I'd like to invite your testimony now.

  STATEMENT OF MOHAMED OULD MAHMOUD, VICE PRESIDENT, LOBBYING 
NETWORK FOR PEACE, SECURITY, AND DEVELOPMENT FOR NORTHERN MALI, 
                          BAMAKO, MALI

    Mr. Mahmoud. Thank you very much for inviting me to talk 
about the issue.
    Early in January 2012, the rebellion started under the 
label of MNLA, National Movement of Azawad Liberation. It took 
3 months for the army to be defeated and sent back to the 
capital, Bamako. The national army was at the threshold of its 
capacity to sustain security and national integrity. Therefore, 
the morale of the troops was seriously undermined, and the 
military was horrified by exactions of the insurgents mainly in 
Aguelhoc and Tessalit. Accordingly, the army claimed munitions 
and guns to be more equipped to face the insurgents. This 
demand was followed by demonstrations and riots from the army 
which led to the coup in March 2012.
    However, the northern part of the country was really 
occupied by all kinds of networks--drug trafficking, arms 
smuggling, hijacking, tribal conflicts, and so on. The National 
Security Forces had never controlled the area for the last 20 
years and, therefore, the GISP had found a no-man's land to 
operate and implement his terrorism activities. They enrolled 
and trained many young people coming from many countries.
    The GPC--the Salafist Group for Call and Combat--became 
AQIM--Al Qaeda of the Northern Maghreb--and developed an 
international network of recruitment of jihadists. Furthermore, 
AQIM became the most important security actor in northern Mali 
and controlled all roads of drug trafficking and arms 
smuggling. AQIM leaders also developed a strong connection with 
security officials, politicians, traders, and some local 
chiefs' tribes. This situation turned AQIM into an important 
actor within the local communities by delivering some basic 
services such as health care and water supply, and later on, 
the group started offering equity and justice through the soft 
application of sharia law.
    Meanwhile, officials of the central government were very 
reticent to talk or hear about these issues because of their 
strong involvement in drug trafficking, arms smuggling, and the 
liberation of Western hostages. As a result, community leaders 
became more and more skeptical of the role of the central 
government to take charge of the local security issues and 
deliver justice and equity all over the country, especially 
where controlling drug trafficking and AQIM are concerned.
    Alternatively, leaders in the north started to concert and 
organize themselves to determine the best way to face the 
terrorist activities and take control of drug trafficking. In 
December 2009, all community leaders and stakeholders from the 
north held a meeting in Kidal to share information and debate 
about the best approaches to deal with terrorist activities. 
The 3-day meeting resulted in the formation of the Chiefs 
Network for Lobbying for Peace and Development.
    Groups controlling the northern part. Since the clashes 
between MUJAO and MNLA, there remain only three main groups 
controlling the area: Ansar Dine, MUJAO, and AQIM. These 
different groups have one common interest, the implementation 
of the sharia law. MNLA, on the other hand, was claiming the 
independence of the Azawad Republic.
    MNLA currently has no control of any territory in the 
north, but they are claiming to adhere to the values of 
democracy and ``laicite''--secularism--unlike the three other 
groups. MNLA is composed of former Tuareg rebellion officers 
and intellectuals and is reinforced by the former Libyan 
Leaders Legion. This organization was the most popular among 
the youth community, but today it has lost its credibility as 
it has lost its ability to control the north. During the last 
months, MNLA has lowered its own political ambitions and 
instead of claiming the independence of Azawad, MNLA members 
are now talking about federalism.
    Ansar Dine was created by Iyad Ag Aghaly to balance the 
leadership of rising MNLA, which did not accept him as a 
leader. On the other hand, Ansar Dine was created to protect 
the interests of the Ifoghas community, and it has benefited 
from the protection of AQIM where Iyad Ag Aghaly used to be an 
important intermediary with the central government to free 
hostages.
    Ansar Dine is today controlling two main regions, Kidal and 
Timbuktu. This group is joined by some jihadists of AQIM and 
MNLA fighters. Ansar Dine has tried to combine forces with MNLA 
many times without success, up until now. This failure of 
having a single Tuareg organization has demobilized too many 
fighters from MNLA to Ansar Dine.
    It seems today that Ansar Dine has integrated militants and 
fighters from MNLA and built credibility within the Tuareg 
community.
    The relationship between Ansar Dine and AQIM is a tactical 
deal to consolidate the leadership of the Ifoghas communities 
and create a connection between AQIM and local leaders. In 
reality, Ansar Dine had no sound political agenda, and this 
explains the will of Ansar Dine to join jihadists in the 
implementation of sharia law. This practice does not fit with 
the expectations and traditions of the Tuareg community.
    Ansar Dine has the strongest military position compared to 
MUJAO and MNLA. To get Ansar Dine out of the influence of AQIM, 
we need to create a space of debate for the Tuareg community as 
a whole in order to decide what will be the most appropriate 
future of the society, the ruling system, and the spiritual and 
cultural dimensions. The strategy to create the space and 
framework for people to talk would help dilute the role of the 
actual Ansar Dine leaders.
    MUJAO is an international network of jihadists hosted by 
the Lamhar community of Gao. It is composed of Arabs who are 
specialized in drug trafficking and who have a strong 
connection with AQIM leaders. The only agenda held by MUJAO is 
to create terror beyond the Malian borders and to impose their 
local leadership on other communities in the region. This is 
the most criminal organization and will never give up drug 
trafficking and terrorism as activities.
    People's perceptions and expectations. The majority of 
people living under the occupation and who are in refugee camps 
want to see an end to AQIM's activities and living in a strong 
state which can ensure freedom, equity, and justice. War is the 
last wanted solution because terrorists and others groups could 
easily escape and leave the people under the bombs of 
international community.
    How to get the north back to the country. First of all, we 
need a legitimate and credible central government in the south. 
We have to organize free and independent elections. This does 
not mean that the north is neglected, but it's the part of 
starting point.
    To engage talk with Ansar Dine and MNLA; to create spaces 
for people and local leaders to debate on the future of their 
lives; and to change the national governance which could allow 
freedom of choices.
    Thank you very much.
    [The prepared statement of Mr. Mahmoud follows:]

               Prepared Statement of Mohamed Ould Mahmoud

                          CONTEXTUAL ANALYSIS

    Early in January 2012, the rebellion started under the label of 
MNLA (National movement of Azawad liberation). It took 3 months for the 
army to be defeated and sent back to the capital, Bamako; the national 
army was at the threshold of its capacity to sustain security and 
national integrity. Therefore, the moral of the troops was seriously 
undermined, and the military was horrified by exactions of the 
insurgents mainly in Aguelhoc and Tessalit. Accordingly, the army 
claimed munitions and guns to be more equipped to face the insurgents; 
this demand was followed by demonstrations and riots from the army 
which led to the coup in March 2012.
    However, the northern part of the country was really occupied by 
all kinds of networks (drugs trafficking, arms smugglings, hijacking, 
tribal conflicts, and so on). The national security forces had never 
controlled the area for the last 20 years, and therefore, the GISP had 
found a no man's land to operate and implement his terrorism 
activities. They enrolled and trained many young people coming from 
many countries.
    The GPC (The Salafist Group for Call and Combat) became AQIM (Al-
Qaeda of the Northern Maghreb) and developed an international network 
of recruitment of jihadists. Furthermore, AQIM became the most 
important security actor in northern Mali and controlled all roads of 
drugs trafficking and arms smuggling. AQIM leaders also developed a 
strong connection with security officials, politicians, traders and 
some local chiefs tribes. This situation turned AQIM into an important 
actor within the local communities by delivering some basic services 
such as health care and water supply, and later on, the group started 
offering equity and justice through the soft application of sharia law.
    Meanwhile, officials of the central government were very reticent 
to talk or hear about these issues because of their strong involvements 
in drugs trafficking, arms smuggling, and the liberation of Western 
hostages. As a result, community leaders became more and more skeptical 
of the role of the central government to take charge of the local 
security issues and deliver justice and equity all over the country, 
especially where controlling drugs trafficking and AQIM are concerned.
    Alternatively, leaders in the north started to concert and organize 
themselves to determine the best way to face the terrorist activities 
and take control of drugs trafficking. In December 2009, all community 
leaders and stakeholders from the north held a meeting in Kidal to 
share information and debate about the best approaches to deal with 
terrorist activities. The 3-day meeting resulted in the formation of 
the ``Chiefs Network for Lobbying for Peace and Development.''

                  GROUPS CONTROLLING THE NORTHERN PART

    Since the clashes between MUJAO and MNLA, there remain only three 
main groups controlling the area: ANSAR DEEN, MUJAO and AQMI. These 
different groups have one common interest--the implementation of the 
sharia law. MNLA, on the other hand, was claiming the independence of 
the Azawad Republic.

  <bullet> MNLA currently has no control of any territory in the north 
        but they are claiming to adhere to the values of democracy and 
        ``laicite'' (secularism) unlike the three other groups. MNLA is 
        composed of former Touareg rebellion officers and intellectuals 
        and is reinforced by the former Libyan Leaders Legion. This 
        organization was the most popular among the youth community, 
        but today, it has lost its credibility as it has lost its 
        ability to control the north. During the last months, MNLA has 
        lowered its own political ambitions, and instead of claiming 
        the independence of Azawad, MNLA members are now talking about 
        federalism.
  <bullet> Ansar Dine was created by Iyad Ag Aghaly to balance the 
        leadership of rising MNLA which did not accept him as a leader. 
        On the other hand, Ansar Dine was created to protect the 
        interests of the Ifoghas community, and it has benefited from 
        the protection of AQIM where Iyad Ag Aghaly used to be an 
        important intermediary with the central government to free 
        hostages. Ansar Dine is today controlling two main regions 
        (Kidal and Timbuktu). This group is joined by some jihadists of 
        AQIM and MNLA fighters. Ansar Dine has tried to combine forces 
        with MNLA many times without success up until now. This failure 
        of having a single Touareg organization has demobilized too 
        many fighters from MNLA to Ansar Dine.
      It seems today that Ansar Dine has integrated militants and 
        fighters from MNLA and built credibility within the Touareg 
        community.
      The relationship between Ansar Dine and AQIM is a tactical deal 
        to consolidate the leadership of the Ifoghas communities and 
        create a connection between AQIM and local leaders. In reality, 
        Ansar Dine had no sound political agenda, and this explains the 
        will of Ansar Dine to join jihadists in the implementation of 
        sharia law. This practice does not fit with the expectations 
        and traditions of the Touareg community. Ansar Dine has the 
        strongest military position compared to MUJAO and MNLA. To get 
        Ansar Dine out of the influence of AQIM, we need to create a 
        space of debate for the Touareg community as a whole in order 
        to decide what will be the most appropriate future of the 
        society, the ruling system, and the spiritual and cultural 
        dimensions.
      The strategy to create the space and framework for people to talk 
        would help dilute the role of the actual Ansar Dine leaders.
  <bullet> MUJAO is an international network of jihadists hosted by the 
        LAMHAR community of GAO. It is composed of Arabs who are 
        specialized in drugs trafficking and who have a strong 
        connection with AQIM leaders. The only agenda held by Mujao is 
        to create terror beyond the Malian borders and to impose their 
        local leadership on other communities in the region. This is 
        the most criminal organization and will never give up drugs 
        trafficking and terrorism as activities.

                 PEOPLE'S PERCEPTIONS AND EXPECTATIONS

    The majority of people living under the occupation and who are in 
refugee camps want to see an end to AQIM's activities and living in a 
strong state which can insure freedom, equity, and justice. War is the 
last wanted solution because terrorists and others groups could easily 
escape and leave the people under the bombs of international community.

                HOW TO GET THE NORTH BACK TO THE COUNTRY

  <bullet> First of all, we need a legitimate and credible central 
        government in south. We have to organize free and independent 
        elections. This does not mean that the north is neglected but 
        it's the part of starting point.
  <bullet> To engage talk with Ancar Deen and MNLA;
  <bullet> To create spaces for people and local leaders to debate on 
        the future of their lives; and
  <bullet> To change the national governance which could allow freedom 
        of choices.

    Senator Coons. Thank you, Mr. Mahmoud.
    I'm going to ask one question. Just if I could summarize, 
and thank you for your testimony, each of the four members of 
this panel. The United States has had a long and a close 
relationship with the Malian people. We have long supported 
development, security, democracy. The developments of the last 
year, nearly 2 years, have been very upsetting, disturbing, 
troubling. We now have a significant area of Mali and many of 
its people facing security challenges, legitimacy challenges, 
human rights abuses, fundamental human rights abuses caused by 
many different actors, and this should cause us in the United 
States to reconsider some of our strategic approaches and some 
of our choices.
    If each of you had one suggestion for what is the most 
important thing that we should be taking away from this hearing 
and pressing for the United States to do, whether to advance 
human rights, to advance a secure and credible election, to 
advance a regional strategy that is successful, or to ensure 
that we effectively engage with the real human needs of the 
people of Mali, what is your one suggestion for us, for our 
actions going forward?
    Mr. Mahmoud, I will start with you, and then Mr. Akuetteh, 
Ms. Dufka, and Dr. Fomunyoh.
    Mr. Mahmoud. I think for us, the first thing to do is to 
get this election done, a legitimate government in Bamako, so 
that they can stop openly the rebellion movement in the north. 
As far as we don't have legitimacy, we can't move forward to a 
peaceful north, and even the south part of the country.
    I'm afraid that even Bamako and the other cities will be 
occupied by the terrorists and so on. So we should be rushing 
to get this election done as soon as possible.
    Senator Coons. Thank you very much, Mr. Mahmoud.
    Mr. Akuetteh.
    Mr. Akuetteh. Thank you very much. My choice would be, my 
recommended choice would be a regional strategy for combating 
terrorism, because I do think if you look at what has happened, 
a lot of Africans have been killed. So terrorism in Africa is 
not just a threat to the United States. It is to Africans, too.
    Now, the kind of strategy that I will stress, though, is I 
think it has to be rooted in democracy and social justice and 
good governance inside every African country. That will then 
take away the grievances and the things that will attract--
create terrorists.
    Now, if there are foreign terrorists coming around, there 
are different ways of dealing with them. But I do think that it 
has to be rooted in democracy because if we focus on foreign 
terrorists and ignore what is happening inside countries, I 
think it's really dangerous. For 2 years, some of us were 
worried about the lack of focus on the Tuareg problem until 
they moved back from Mali.
    So I think the regional strategy rooted in democracy as a 
way of fighting the big threats of terrorism across Africa.
    Senator Coons. Thank you.
    Ms. Dufka.
    Ms. Dufka. You've given us the most difficult question. I 
would say a few things. Of course, I see things through the 
prism of rule-of-law institutions which, as I've noted, were 
very weak.
    I would say to encourage a dialogue in which all Malians 
can be a part, because to focus only on the Tuaregs and those 
Tuaregs who have taken up arms, which are a tiny minority--
there were a lot of Tuaregs who were not in favor of this war. 
They felt it was a very opportunistic action on the part of a 
very few. So to open up with respect to the north, to ensure 
that there is a dialogue so that all voices in the north can be 
heard, not just the Tuaregs who have taken up arms, and to 
ensure a dialogue that would address the underlying causes 
which affect all Malians, not just Malians in the north but 
some of these rule-of-law issues that affect all Malians.
    And then, of course, do not forget the issue of addressing 
abuses and the culture of impunity, which could potentially 
lead to much graver violations in the future as military 
intervention happens and after a vacuum is left in some of 
these areas in the north in which abuses could happen. Thank 
you.
    Senator Coons. A broad and inclusive dialogue, and real 
accountability.
    Dr. Fomunyoh.
    Dr. Fomunyoh. Mr. Chairman, I would say the one thing to 
take out of this is I think all of us are trying to draw 
lessons from the Malian experience and asking ourselves 
constantly what happened to this country that for 20 years 
seemed to be a functioning democracy. I think one of the 
takeaways for us is that elections, even when held regularly, 
do not necessarily an effective democracy make.
    So even if we fast-forward into 2013 and the military 
operation goes well, and the big cities are regained by the 
government in Bamako, and we have good elections, inclusive 
elections, I think the one lesson that we should all take from 
this experience is the need for sustainable partnerships, that 
democracy support programs shouldn't end with support for an 
electoral process. We really have to deepen the process of 
service delivery and strengthening of institutions.
    Senator Coons. Terrific. Thank you very much. I appreciate 
those concise summations.
    Senator Isakson.
    Senator Isakson. Underlining concise, I'll be quick.
    I thank all of you for your testimony. Mr. Mahmoud, thank 
you very much for your testimony. You focused on one of the 
first, most important needs is a credible government in Mali, 
in the south.
    I'll ask Ms. Dufka a question. I asked the DOD lady before, 
Amy, or Amanda. Evidently, from your testimony, Captain Sanogo 
is not the kind of guy that would be the representative of 
reform. Is that correct?
    Ms. Dufka. Yes.
    Senator Isakson. I think that's representative of what Mr. 
Mahmoud said and what they need in terms of the government to 
build on.
    Second, I want to make a comment. Mr. Akuetteh made a 
critical observation, adding contagion as a fifth concern in 
Mali, and it may be really the biggest concern for the United 
States of America, because if this spreads across boundaries 
and if Al Qaeda in the Islamic Maghreb becomes more and more 
powerful in neighboring partners around there, it will be a 
significant problem not just for the United States but for all 
of West Africa, and I appreciate your testimony on that.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you very much, Senator Isakson. I'm 
always grateful for your partnership and for the ease with 
which our staff works together to prepare these important 
hearings.
    Forgive us but it is past 11 o'clock, our appointed hour. 
All of your testimony, all of your written testimony will be 
submitted for the record.
    There were several other Senators who expressed real 
interest in this hearing today but due to their schedules were 
not able to join us. So I'm going to leave the record open for 
a week, which will allow other Senators to submit questions for 
the record of any of our witnesses, and for us to then take 
some actions going forward.
    I'm grateful for the support efforts that made it possible 
for us to get a great and full discussion of the many 
challenging issues facing us in the United States, in the 
region, and in Mali.
    Thank you, Mr. Mahmoud, for joining us from Bamako.
    Thank you, Dr. Fomunyoh. Thank you, Ms. Dufka. And thank 
you, Mr. Akuetteh. We are grateful for your testimony today.
    With that, this hearing is adjourned.
    [Whereupon, at 11:07 a.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
